<html>
<title> - [H.A.S.C. No. 112-130]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2013 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 112-130]


                                HEARING

                                   ON

 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2013
                                  AND
              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                           BUDGET REQUEST FOR

                    ATOMIC ENERGY DEFENSE ACTIVITIES

                      AND NUCLEAR FORCES PROGRAMS

                               __________

                              HEARING HELD
                             APRIL 17, 2012


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
74-471                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb9c8b94bb988e888f939e978bd5989496d5">[email&#160;protected]</a>  
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     C.A. DUTCH RUPPERSBERGER, Maryland
SCOTT RIGELL, Virginia               BETTY SUTTON, Ohio
AUSTIN SCOTT, Georgia
                Tim Morrison, Professional Staff Member
                 Drew Walter, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                      Eric Smith, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Tuesday, April 17, 2012, Fiscal Year 2013 Budget Request for 
  Atomic Energy Defense Activities and Nuclear Forces Programs...     1

Appendix:

Tuesday, April 17, 2012..........................................    51
                              ----------                              

                        TUESDAY, APRIL 17, 2012
 FISCAL YEAR 2013 BUDGET REQUEST FOR ATOMIC ENERGY DEFENSE ACTIVITIES 
                      AND NUCLEAR FORCES PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Strategic Forces.......................     4
Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Creedon, Hon. Madelyn R., Assistant Secretary of Defense for 
  Global Strategic Affairs, U.S. Department of Defense...........     7
D'Agostino, Hon. Thomas P., Administrator, National Nuclear 
  Security Administration, Under Secretary for Nuclear Security, 
  U.S. Department of Energy......................................    28
Huizenga, David G., Senior Advisor for Environmental Management, 
  U.S. Department of Energy......................................    30
Kehler, Gen C. Robert, USAF, Commander, U.S. Strategic Command...     9
Winokur, Hon. Peter S., Chairman, Defense Nuclear Facilities 
  Safety Board...................................................    32

                                APPENDIX

Prepared Statements:

    Creedon, Hon. Madelyn R......................................    61
    D'Agostino, Hon. Thomas P....................................   101
    Huizenga, David G............................................   139
    Kehler, Gen C. Robert........................................    70
    Sanchez, Hon. Loretta........................................    59
    Turner, Hon. Michael.........................................    55
    Winokur, Hon. Peter S........................................   150

Documents Submitted for the Record:

    Memorandum of Agreement Between Secretary Robert M. Gates 
      (U.S. Department of Defense) and Secretary Steven Chu (U.S. 
      Department of Energy) Concerning Modernization of the U.S. 
      Nuclear Infrastructure.....................................   232
    Statement of ADM Kirkland Donald, USN, Director, Naval 
      Reactors, National Nuclear Security Administration, U.S. 
      Department of Energy.......................................   191
    Statement of Anne Harrington, Deputy Administrator for 
      Defense Nuclear Nonproliferation, National Nuclear Security 
      Administration, U.S. Department of Energy..................   195
    Statement of Dr. Charles F. McMillan, Laboratory Director, 
      Los Alamos National Laboratory.............................   211
    Statement of Dr. Paul J. Hommert, President and Director, 
      Sandia National Laboratories...............................   200
    Statement of Dr. Penrose C. Albright, Director, Lawrence 
      Livermore National Laboratory..............................   220
    Statement of Maj Gen William A. Chambers, USAF, Assistant 
      Chief of Staff, Strategic Deterrence and Nuclear 
      Integration................................................   181
    Statement of RADM Terry Benedict, USN, Director, Strategic 
      Systems Programs...........................................   171

Witness Responses to Questions Asked During the Hearing:

    Mr. Brooks...................................................   241
    Mr. Garamendi................................................   241
    Mr. Turner...................................................   239

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................   248
    Ms. Sanchez..................................................   246
    Mr. Turner...................................................   245
 FISCAL YEAR 2013 BUDGET REQUEST FOR ATOMIC ENERGY DEFENSE ACTIVITIES 
                      AND NUCLEAR FORCES PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Tuesday, April 17, 2012.
    The subcommittee met, pursuant to call, at 3:24 p.m. in 
room 2212, Rayburn House Office Building, Hon. Michael Turner 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Good afternoon. We will call to order the 
hearing for the Strategic Forces Subcommittee. I apologize for 
our tardiness. I know you all are very used to the fact that 
the votes throw the schedule off here at the Capitol, and I 
appreciate your tolerance for our starting late.
    The Strategic Forces Subcommittee hearing on the 
President's fiscal year 2013 budget request for DOD [Department 
of Defense] and DOE [Department of Energy] nuclear forces, U.S. 
nuclear weapons posture, and the fiscal year 2013 budget 
request from Environmental Management is an incredibly 
important hearing as we move forward on looking at the 
priorities and responsibilities of this subcommittee.
    I want to thank all witnesses for being here today. For 
those who follow the sometimes arcane world of nuclear weapons, 
budgeting and policy, the witnesses on our two panels are 
familiar faces. They are the Honorable Madelyn Creedon, 
Assistant Secretary of Defense for Global Strategic Affairs, 
U.S. Department of Defense; and General C. Robert Kehler, 
Commander, U.S. Strategic Command.
    On Panel 2, we have the Honorable Thomas P. D'Agostino, 
Administrator, National Nuclear Security Administration; Mr. 
David G. Huizenga, Senior Advisor for Environmental Management, 
U.S. Department of Energy; and the Honorable Peter S. Winokur, 
Chairman, Defense Nuclear Facilities Safety Board.
    On December 1, 2010, prior to the ratification of the New 
START [Strategic Arms Reduction Treaty] Treaty, the then-
directors of Lawrence Livermore, Los Alamos, and Sandia 
National Laboratories wrote to Senators Kerry and Lugar and 
stated: ``We believe that the proposed budgets,'' referring to 
the November 2010 update to the Section 1251 plan, ``provide 
adequate support to sustain the safety, security, reliability, 
and effectiveness of America's nuclear deterrent within the 
limit of 1,550 deployed strategic warheads established by the 
New START Treaty with adequate confidence and acceptable 
risk.''
    That plan appears to have been abandoned in the President's 
fiscal year 2013 budget request, calling into question whether 
there still is adequate support for the Nation's nuclear 
deterrent to permit the reductions that are called for by the 
New START Treaty.
    There have been those inside and outside of Government who 
have challenged the linkage of the New START Treaty and the 
modernization plan. There are those who make the argument that 
because President Obama has requested more funds than his 
predecessor, though not the funds that he promised, that he has 
done all he is needed to do. Neither of these positions 
represent serious thinking that benefits our national security. 
The question is what is necessary today and how are we going to 
accomplish it.
    There can be no doubt that reductions proposed by the New 
START Treaty are only in our national interest if we complete 
the modernization of our nuclear deterrent warheads delivery 
systems and infrastructure.
    I want to remind those who have forgotten, this was the 
President's modernization plan. It was his Nuclear Posture 
Review, issued in April 2010 before there was a New START 
Treaty, and his 1251 plan. Here are some of the highlights from 
the President's 2010 NPR [Nuclear Posture Review].
    It was stated: ``Funding the Chemistry and Metallurgy 
Research Replacement Project at Los Alamos National Laboratory 
to replace the existing 50-year-old Chemistry and Metallurgy 
Research Facility in 2021.''
    Also from the President's 2010 NPR: ``Developing a new 
Uranium Processing Facility at the Y-12 Plant in Oak Ridge, 
Tennessee, to come online for production operations in 2021.''
    Also from the President's 2010 NPR: ``The administration 
will fully fund the ongoing LEP [Life Extension Program] for 
the W76 submarine-based warhead for a fiscal year 2017 
completion, and the full scope LEP study and follow-on 
activities for the B61 bomb to ensure first production begins 
in fiscal year 2017.''
    The President's 1251 plan states that CMRR [Chemistry and 
Metallurgy Research Replacement] and UPF [Uranium Processing 
Facility] will complete construction by 2021, and will achieve 
full operational functionality by 2024.
    Further, the inextricable linkage of modernization in the 
New START reductions was the basis of Condition Nine of the New 
START Treaty. The linkage was the legal basis on which the 
Senate ratified the treaty. Let me remind everyone that the 
Senate said in Condition Nine the following: ``The United 
States is committed to proceeding with a robust stockpile 
stewardship program, and to maintaining and modernizing the 
nuclear weapons production capabilities and capacities that 
will ensure the safety, reliability, and performance of the 
United States nuclear arsenal at the New START Treaty levels. 
The United States is committed to providing the resources 
needed to achieve these objectives at a minimum at the level 
set forth in the President's 10-year plan provided to Congress 
pursuant to Section 1251.''
    The President agreed to Condition Nine as I just read it.
    First off, I believe the President is abandoning his 
commitment that he ratified or acknowledged in Condition Nine, 
and I think it is in part because he already has his treaty and 
it has already been ratified. I think implementation is 
something that he is now putting aside before us. I base that 
belief on the budget submitted and that the status report 
required by Condition Nine has not been submitted to Congress. 
Also the Section 1045 report last year from the NDAA [National 
Defense Authorization Act] has not been completed.
    Let me remind the subcommittee what Dr. James Miller, the 
President's nominee to the Under Secretary of Defense for 
Policy, told us just last November. He said, quote: ``The first 
is that we understand the requirement to report per Condition 
Nine if we have less funding than in the 1251, as requested in 
the Section 1251 report. Our interpretation of that has been 
substantially less,'' meaning that he says that even though we 
asked for less funding we don't have to file a report. We have 
to ask for substantially less.
    In fiscal year 2011 actually slightly less was appropriated 
than requested. Back to his words: ``Our judgment was a 1 
percent or less change doesn't require us to submit the 
report.''
    Let us dwell on what he just said again. ``Our judgment was 
that a 1 percent change or less doesn't require us to submit 
the report.''
    The difference we are looking at now in the fiscal year 
2012 appropriations bills in both the House and Senate 
appropriations bills I think would trigger that. His words, and 
we would have to examine that question. If there is 
substantially less funding than requested, we will, of course, 
provide the report to Congress.
    Yet we have no report for either fiscal year 2012 or the 
President's own budget request for fiscal year 2013, which 
underfunds the 1251 plan.
    So what has changed? Is it solely the budget picture? I 
don't mean to dismiss the budget situation and the cuts that 
DOD has to make, especially it has made those cuts while 
transferring large sums of its own budget to fund the 
modernization activities at the NNSA.
    But again the question here is whether U.S. nuclear force 
reductions make sense without modernization. The President's 
Nuclear Posture Review makes the case for this linkage when it 
stated: ``Implementation of the stockpile stewardship program 
and the nuclear infrastructure investments recommended in the 
NPR will allow the United States to shift away from retaining 
large numbers of nondeployed warheads as a hedge against 
technical or geopolitical surprise, allowing major reductions 
in the nuclear stockpile.''
    In the absence of these investments, will the forthcoming 
NPR implementation study continue to hurtle toward what seems 
to be a prejudged outcome that the U.S. should further reduce 
its nuclear deterrent? I see no other way to understand the 
President's recent comments at Hankuk University in Seoul, 
stating: ``Last summer I directed my national security team to 
conduct a comprehensive study of our nuclear forces. That study 
is under way,'' the President said. ``But even as we have more 
work to do,'' the President speaking, ``we can already say with 
confidence that we have more nuclear weapons than we need.''
    Need for what?
    So the study isn't done, but we already know the answer 
supports the President's goal of a world without nuclear 
weapons. Either the President already knows the answers to the 
questions, in which case the Congress must be informed, or the 
President wrote the question to ensure an answer that he wants.
    Again, Congress waits for an answer.
    Hopefully, our witnesses today will shed some light on this 
important area. Either way, I assure you this year's National 
Defense Authorization Act will ensure Congress' oversight of 
these issues.
    I also want to highlight some of the discussion at this 
subcommittee's February hearing on governance and management of 
the nuclear security enterprise. At that hearing we heard from 
the National Academies of Science about a ``broken'' and 
``dysfunctional'' relationship between NNSA and its 
laboratories. We also heard about a system of micromanagement 
that is costing taxpayers untold millions. The National 
Academies study and nearly a dozen others have identified and 
documented the problems and suggested possible solutions.
    I hope our witnesses on both panels will help us understand 
what actions should be taken and when.
    Finally, we welcome the opportunity to review the budget 
and priorities of DOE's Defense environmental cleanup efforts. 
DOE continues to do good work in nuclear cleanup but also 
continues to struggle with technical and management issues at 
its largest project. I look forward to hearing about how DOE 
intends to address these concerns.
    With those concerns having been acknowledged, I now turn to 
my ranking member, Ms. Sanchez, for her opening remarks.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 55.]

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
  CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Ms. Sanchez. Thank you, Mr. Chairman.
    I would like to join Chairman Turner in welcoming General 
Kehler, Ms. Creedon, Mr. D'Agostino, Mr. Huizenga, and Dr. 
Winokur.
    I am also grateful and thank Ms. Harrington, Dr. Hommert, 
Dr. Albright and Dr. McMillan, Admiral Benedict, and Admiral 
Donald for the statements in the record that you all have put 
in and for being here to participate in our discussion today 
during the question and answer part of this hearing.
    I'd like to preface my comments by noting that the 
congressionally mandated, voted-on, brought-forward Budget 
Control Act is reinforcing some difficult decisions, some real 
soul-searching in all aspects of our Government spending and 
our defenses, and our strategic defenses are no different. We 
must reexamine and think about what we really need for the 
future and decide what we can afford because it is always about 
limited resources. Really, it is always about limited 
resources.
    So in that context, I would like to touch on a few specific 
issues related to sustaining our nuclear deterrent and our 
nuclear forces, nuclear nonproliferation, and nuclear cleanup 
efforts.
    First, our nuclear weapons activities and operations. 
President Obama and Vice President Biden have made clear over 
and over the importance of maintaining a safe, a secure, and a 
reliable nuclear arsenal without nuclear testing while making 
prudent progress towards lower numbers. There is no doubt in 
that, that's what they would like to see. Quite frankly, that 
is what I would like to see.
    The Administration is currently conducting an 
implementation study of the Nuclear Posture Review that will 
inform the requirements. So it is important to note that with 
over 5,000 deployed and nondeployed nuclear weapons, the United 
States still maintains the ability to destroy the world several 
times over. So when I hear my colleague say for what, I mean, 
we have a lot in hand.
    Even with the progress on nuclear reductions, with nuclear 
modernization plan's weapons and associated delivery vehicles 
remaining necessary, we must still think about how to do this 
in a smart way, how to make effective investments. That is what 
we need to do, because every dollar that goes this way is a 
dollar that is taken from somewhere else, whether it is the 
welfare of our people, the education of our people, the 
environment our people live in.
    For NNSA [National Nuclear Security Administration], while 
construction of the plutonium research facility at Los Alamos 
National Laboratory has been delayed, several ongoing or new 
big-ticket items do require close oversight, including, for 
example, the construction of the Uranium Processing Facility at 
Oak Ridge, which is now estimated to cost between $6 to $7 
billion, and the B61 Life Extension for forward-deployed 
warheads in Europe, so far estimated to cost around $5 billion.
    However, as we prepare this fiscal year 2013 defense 
authorization bill, our committee has not received from the 
NNSA the out-year budget estimate or the stockpile stewardship 
and management plan to inform our deliberations.
    As we look at requirements for maintaining a powerful 
nuclear deterrent, improved oversight and planning will be 
crucial to ensure that we can avoid cost overrun and schedule 
delays. It is part of what this committee is supposed to do, 
and it is an important piece of what we do. And in that I 
applaud Chairman Turner for being very diligent about getting 
to the numbers and trying to move this committee to do the 
oversight that I think that we need to do.
    We also have to think about retaining critical skills, 
about capability and long-term investments in science and 
technology to ensure that we keep our brightest and our best 
employed, looking at this, and making and meeting the standards 
for nuclear safety.
    We will rely on the Department of Defense and STRATCOM 
[U.S. Strategic Command] to continue to critically examine Cold 
War-derived requirements, assess their continued value and cost 
effectiveness, and adaptation to new and likely threats.
    This brings me to my second point on nuclear 
nonproliferation and nuclear threat reduction. I commend the 
Administration for its successes at the nuclear security 
summit; particularly the U.S.-Russian cooperation to secure 
potentially vulnerable material in Kazakhstan. I would also 
like to note the total removal of highly enriched uranium from 
Mexico and the Ukraine, as well as the progress towards 
converting Russian research reactors to use low-enriched 
uranium rather than HEU [highly enriched uranium].
    However, in contrast, the budget continues to prioritize 
the construction of the MOX [mixed oxide fuel] facility at 
almost $1 billion annually, despite the absence of a clear path 
forward.
    Another example, the nonproliferation budget also includes 
$150 million subsidy for low-enriched fuel production, which 
should be the weapons activities account, for example, or in 
the Department's nuclear energy account.
    Urgent efforts such as including the President's goal of 
securing all vulnerable weapons usable material in 4 years 
must, I believe, be a pressing national security priority.
    In this context, I would like to hear about interagency 
coordination and how the Department of Defense is supporting 
nuclear nonproliferation efforts.
    Third, nuclear cleanup remains a critical issue in the 
aftermath of the Cold War. Sites like Hanford and Savannah 
River site played a unique and important piece in our history 
in the Cold War, but we have to be diligent and we have to get 
this cleanup done. So I would like to hear about how the 
Department is addressing the safety culture concerns at the 
waste treatment plant at Hanford and the cost increases for 
that program.
    Mr. Chairman, there are obviously, and you and I have 
discussed this before, a lot of other issues this year as we 
try to move forward in the next couple of weeks and get a mark 
that is going to work for what we believe are the priorities.
    So I am very grateful to have you in front of us today, and 
again, welcome.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 59.]
    Mr. Turner. Thank you.
    Prior to the beginning of your comments, I just want to 
acknowledge that our committee works very strongly on a 
bipartisan basis. We have had an incredible history of strong, 
unanimous bipartisan support, one of the few committees or 
subcommittees that generally signs letters that include either 
all members or both leaderships.
    As you begin your comments, I do want to note that this 
committee, subcommittee, has historically on a bipartisan basis 
unanimously supported the necessity, not just the desirability, 
but the necessity of CMRR, the UPF, and the life extension 
programs. And with that full support that this subcommittee has 
provided, we look forward to your additional insight.
    We ask if you will summarize your written testimony which 
has been provided to the subcommittee and if you would provide 
us your oral statement in a period of 5 minutes, we would 
greatly appreciate that.
    We will begin first with Assistant Secretary Creedon.

 STATEMENT OF HON. MADELYN R. CREEDON, ASSISTANT SECRETARY OF 
   DEFENSE FOR GLOBAL STRATEGIC AFFAIRS, U.S. DEPARTMENT OF 
                            DEFENSE

    Secretary Creedon. Thank you, Chairman Turner and Ranking 
Member Sanchez and distinguished members of the subcommittee. I 
am pleased to be here today with General Kehler, Major General 
Chambers, and Rear Admiral Benedict, as well as my colleagues 
from the Department of Energy and Dr. Winokur, who are on the 
second panel, to testify on the important issues of our nuclear 
forces and nuclear policies.
    I will make just a few remarks today to highlight some of 
the topics addressed in my written statement, which I would 
like to submit for the record.
    The Department plays a crucial role in the President's 
vision to take concrete steps toward a world without nuclear 
weapons while maintaining a safe, secure, and effective nuclear 
deterrent for the Nation and our allies. We are working towards 
this vision while supporting the demands of a complex global 
security environment.
    We have made and are continuing to make decisions on 
policy, strategy and future force structure in a way that 
ensures we are meeting key objectives of the Nuclear Posture 
Review.
    These include: Maintaining strategic deterrence and 
stability at reduced nuclear force levels and strengthening 
regional deterrence and reassuring U.S. allies and partners. We 
are seeking the positive results of these decisions with the 
entry into force of the New START Treaty in February of 2011. 
The timing and framework for the next round of arms control 
negotiations have not been set, but we look forward to 
discussions with Russia that are broader in scope and more 
ambitious. These discussions should include strategic and 
nonstrategic nuclear weapons.
    Even after the New START Treaty is fully implemented, the 
United States and Russia together will account for more than 90 
percent of the world's nuclear weapons. For this reason, our 
next round of arms control efforts will remain focused on 
Russia, and it is important that Russia join us in a move to 
lower numbers.
    The Obama administration has made clear that we will uphold 
our security guarantees to our allies and partners. In East 
Asia we have added new forums to our already robust 
relationships with Japan and Republic of Korea. These 
collaborations strengthen U.S. extended deterrence.
    In the Middle East, we are nurturing long-standing 
relationships and expanding new ones to prevent Iran's 
development of a nuclear weapon capability and to counter its 
destabilizing policies in the region.
    And in Europe, NATO [North Atlantic Treaty Organization] is 
undertaking a Deterrence and Defense Posture Review to 
determine the appropriate mix of nuclear, conventional, and 
missile defense forces that the alliance will need to deter and 
defend against the range of 21st-century threats.
    To promote transparency, the United States took the 
unprecedented step of releasing the number of nuclear weapons 
in the stockpile to the public. We would welcome similar 
declarations from Russia and China. We are also pursuing a 
high-level dialogue with China aimed at promoting a stable, 
resilient, and transparent strategic relationship.
    Here at home, as you know, we are assessing deterrence 
requirements to set a goal for future reductions below New 
START levels, while strengthening deterrence of potential 
regional adversaries, enhancing strategic stability vis-a-vis 
Russia and China, and assuring our allies and partners.
    I won't go into the further details about the NPR follow-on 
analysis at this time. The Secretary of Defense has committed 
to sharing relevant aspects of the new planning guidance with 
the senior leaders of the defense authorizing committees when 
the effort is complete. To be clear, this commitment has not 
changed. But it is clear that this analysis will shape our 
pathway forward, as will the budget.
    The current fiscal situation is putting pressure on the 
entire Department, and the Nuclear Enterprise is no exception. 
For fiscal year 2013, we have made careful choices to protect 
high-priority programs while allowing some efforts to be 
delayed with acceptable or manageable risks.
    Some programs, including the replacement for the Ohio class 
ballistic missile submarine, will be delayed. Others, such as 
the new bomber, remain on schedule.
    The Department has done much to ensure a viable plan to 
sustain and modernize our nuclear forces given the constraints 
of the Budget Control Act. In the face of these constraints, 
DOD has made tough choices, but ones that continue to meet our 
national security requirements. We do this by investing in our 
nuclear enterprise, particularly in the stockpile and nuclear 
infrastructure, as well as through modernization of the 
delivery systems that underpin strategic deterrence. We are 
also planning on focusing significant resources on an 
underappreciated but critical component of strategic 
deterrence, the nuclear command and control system that links 
the triad of nuclear forces.
    Finally, DOD remains a leader in ensuring that terrorists 
and proliferators cannot access nuclear materials and expertise 
abroad. In cooperation with our interagency partners, we are 
building on our long history of cooperation with allies and 
partners to expand our efforts in the nonproliferation arena.
    Let me conclude by coming back to the NPR and the 
President's commitment to a comprehensive and balanced nuclear 
agenda. Our nuclear forces remain the foundation of deterrence. 
Our arsenal needs significant and immediate investment, and 
nuclear dangers today are real.
    I am pleased to be here with my colleagues to discuss the 
concrete steps we have taken to sustain the nuclear deterrent 
and support the President's vision. I would also like to 
underscore the importance of the strong bipartisan support that 
the chairman has mentioned on these issues critical to the 
Nation's security. We welcome the dialogue and debate on these 
issues as a way to sustain and renew a long-term approach to 
nuclear security.
    Thank you, and I look forward to your questions.
    [The prepared statement of Secretary Creedon can be found 
in the Appendix on page 61.]
    Mr. Turner. Great. Thank you for your statement. And the 
subcommittee has received statements from each of the 
witnesses, and without objection those statements will be made 
part of the record. There are also several other written 
statements that we have received from various officials on the 
subject matter of the hearing that without objection will be 
added to the record.
    General Kehler.

   STATEMENT OF GEN C. ROBERT KEHLER, USAF, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Kehler. Thank you, Mr. Chairman and Ranking Member 
Sanchez, distinguished members of the subcommittee. We 
certainly appreciate the opportunity to present my views today 
on the United States Strategic Command's missions and 
priorities, especially our nuclear responsibilities.
    I am pleased to be here with Assistant Secretary Creedon, a 
great colleague and someone with tremendous insight into U.S. 
strategic policy and programs.
    I am also glad that you are going to hear from NNSA 
Administrator Tom D'Agostino and the other expert panelists in 
a little while.
    Without question, Mr. Chairman, we continue to face a very 
challenging global security environment marked by constant 
change, enormous complexity, and profound uncertainty. Indeed, 
change and surprise have characterized the time that has passed 
since my last appearance before this committee.
    Over that time, the men and women of STRATCOM have 
participated in many, many activities, to include the support 
of operations in Libya and Japan, and others ranging through 
the preparation of the New Defense Strategic Guidance. Through 
this extraordinary period of challenge and change, STRATCOM's 
focus has remained constant, to partner with the other 
combatant commands, to deter, detect, and prevent strategic 
attacks on the United States, our allies and partners, and to 
be prepared to employ force as needed in support of our 
national security objectives.
    Our priorities are clear: First, to deter attack with a 
safe, secure, and effective nuclear deterrent force; second, to 
partner with the other commands to support ongoing operations 
today; third, to respond to the new challenges in space; 
fourth, to build cyberspace capability and capacity; and 
finally, to prepare for uncertainty.
    Transcending all these is the threat of nuclear materials 
or weapons in the hands of violent extremists. We don't have a 
crystal ball at STRATCOM, but we believe events of the last 
year can help us glimpse the type of future conflict that we 
must prepare for. Conflict will likely be increasingly hybrid 
in nature, encompassing air, sea, land, space, and cyberspace. 
It will likely cross traditional geographic boundaries, involve 
multiple participants, and be waged by actors wielding 
combinations of capabilities, strategies, and tactics.
    I think it is important to note that the same space and 
cyberspace tools that connect us together to enable global 
commerce, navigation, and communication also present tremendous 
opportunities for disruption and perhaps destruction.
    In January, the Department of Defense released new 
strategic guidance to address these challenges. This new 
guidance describes the way ahead for the entire Department, but 
I believe many portions are especially relevant to STRATCOM and 
our assigned responsibilities. For example, global presence, 
succeeding in current conflicts, deterring and defeating 
aggression, countering weapons of mass destruction, effectively 
operating in cyberspace, space and across all other domains, 
and maintaining a safe, secure and effective nuclear deterrent 
are all important areas in the new strategy where STRATCOM's 
global reach and strategic focus play a vital role.
    No question these are important responsibilities. There are 
real risks involved in the scenarios we find ourselves in 
today. It is my job to be prepared for those scenarios and to 
advocate for the sustainment and modernization efforts we need 
to meet the challenges. And in that regard, the fiscal year 
2013 budget request is pivotal for our future. We are working 
hard to improve our planning and better integrate our efforts 
to counter weapons of mass destruction.
    We need to proceed with planned modernization of our 
nuclear delivery and command and control systems. We need to 
proceed with life extension programs for our nuclear weapons, 
and modernize the highly specialized industrial complex that 
cares for them.
    We need to improve the resilience of our space 
capabilities, and enhance our situational awareness of the 
increasingly congested, competitive, and contested domain.
    We need to improve the protection and resilience of our 
cyber networks, enhance our situational awareness, increase our 
capability and capacity, and work with the entire interagency 
to increase the protection of our critical infrastructure.
    There are other needs as well, but in short, the new 
national security reality calls for a new strategic approach 
that promotes agile decentralized action from fully integrated, 
I would say fully interdependent and resilient joint forces.
    These are tough challenges, but the men and women of 
STRATCOM view our challenges as opportunities, the chance to 
partner with the other commands to forge better, smarter, and a 
faster joint force.
    We remain committed to work with this subcommittee, the 
Services, other agencies, and our international partners to 
provide the flexible, agile, and reliable strategic deterrence 
and mission assurance capabilities that our Nation and our 
friends need in an increasingly uncertain world.
    Mr. Chairman, it is my honor and a privilege to lead 
America's finest men and women. They are our greatest 
advantage. I am enormously proud of their bravery and 
sacrifice, and I pledge to stand with them and for them to 
ensure we retain the best force the world has ever seen. I join 
with the Secretary of Defense, the Chairman of the Joint Chiefs 
of Staff, and other senior leaders in thanking you and the 
committee for the support you have provided them in the past, 
present, and on to the future.
    Thank you again, Mr. Chairman and Ranking Member Sanchez, 
and I look forward to your questions.
    [The prepared statement of General Kehler can be found in 
the Appendix on page 70.]
    Mr. Turner. Thank you. We obviously have a tremendous 
amount to cover here today, including a number of members who 
are here with some very significant questions. So 
unfortunately, I am going to ask that we all, including of 
course myself, the chairman, have some brevity. But, we do have 
a lot that is going to have to be discussed.
    Secretary Creedon, I have basically six questions for you 
that are divided up into two categories, so I am going to smash 
them together a bit.
    The first category is on budgetary issues with respect to 
CMRR and the MOA [memorandum of agreement] between the DOD and 
NNSA, which I will give you, and the second one goes to this 
issue of Condition Nine, New START, and the mini NPR. So they 
will be divided up into those two categories.
    With the first one, Secretary Creedon, as you know, the 
Department of Defense has transferred to the National Nuclear 
Security Administration some $1.2 billion in budget authority 
for specific purposes as agreed to in that memorandum of 
agreement that I referenced between Secretary Gates and 
Secretary Chu, a copy of which will be added to the record.
    [The information referred to can be found in the Appendix 
on page 232.]
    Mr. Turner. I see a total of $4.5 billion that is pledged 
to be transferred over 5 years, with another $1.1 billion for 
naval reactors over that period of time to support their work 
for the Ohio class submarine replacement. Reviewing the MOA, I 
see a total commitment of $1.2 billion for CMRR, which I 
understand has been deferred until at least 5-year budget 
window.
    My three parts to this first question, I would like for you 
to first discuss, if you will, why the Department of Defense 
considered that it was important enough to provide funding for 
CMRR?
    The second part of that first question: We also see in the 
MOA $785 million that was pledged for the B61 and $224 million 
for the W76, both of which programs have now been delayed by 
the NNSA. So have you gotten your money's worth from the NNSA 
on those two line items?
    And then the third is why hasn't the Department of Defense 
used the authority that we provided in the Defense 
Authorization Act for the Pentagon to transfer $125 million in 
appropriated funds directly to NNSA for use in the 
modernization program? Is it safe to say that the DOD is 
concerned about where this money has gone?
    After your answers to these, we will get to the second 
component, which is Condition Nine, the mini NPR, and New 
START.
    Secretary Creedon. I think I have all of that.
    Let me start with the CMRR. So the money that was 
previously transferred in fiscal year 2011 and 2012, that money 
did in fact go to the intended purpose, and that was to 
continue to assist with the design of the CMRR.
    As we looked at the overall budget for the fiscal year 2013 
budget, both for the Department of Defense and for the National 
Nuclear Security Administration, the NNSA, in light of the 
Budget Control Act, we had to make some difficult choices. And 
so within the context of the Nuclear Weapons Council, we looked 
at the program of modernization and the two construction 
projects and made a very conscious decision within the context 
of the Weapons Council to prioritize the uranium facility at 
Oak Ridge.
    And with that decision came the decision to defer the CMRR 
for at least 5 years so that we could focus on the Uranium 
Processing Facility, which for DOD was the higher priority.
    Now, your second question on that is do we still need CMRR; 
and the answer is yes. We need a capability to support the 
production of pits. Exactly how many we need in the future; in 
other words, what is the future pit requirement, how big CMRR 
has to be, how much plutonium it has to hold, those are all 
decisions that may in fact change at the completion of the UPF 
when we once again resume consideration of the funding and the 
design of the CMRR.
    Now, with respect to the B61, again the Weapons Council 
made a very conscious decision, and I will let General Kehler 
address this as well because he was key to this decision, but 
the Weapons Council made a decision that deferring this until 
2019 was appropriate. The same with the W76. And at some point 
Admiral Benedict can also shed some more light on this; but 
with the extension of the W76, again that was something that 
was in the context of the Weapons Council, was deemed an 
appropriate, manageable decision in light of the budget 
constraints.
    Okay. Now, with respect to the Condition Nine----
    Mr. Turner. We will get to that one in a second, but I 
guess what was missed--and I appreciate your ability to handle 
all of this at once. You have done a great job in answering 
them. I don't really have the sense in your answers yet of your 
level of concern with respect to the stewardship of the money 
that is coming from DOD to NNSA, and there are substantial 
funding commitments. There is actually a greater authority than 
commitments that are being followed through with DOD. And the 
testimony that we have received from just about everyone who 
has sat in your chair is that they are highly concerned about 
what is happening with DOD's value of funds in the hands once 
they are transferred over to NNSA and the lack of 
accomplishment of the goals that those funds are intended for.
    Do you want to voice an opinion on that?
    Secretary Creedon. Sir, one of the issues has been in fact 
the cost of these various commitments, the 76, the 61, UPF, and 
CMRR. And we have noted over time that the costs, the estimated 
costs that had been provided some years earlier, have in fact 
all increased. And the decisions with respect to the deferral 
were in fact largely driven by the increased costs.
    So yes, DOD is very concerned about the management of the 
money and about the increased costs associated with the two 
projects and the two life extensions.
    Mr. Turner. I think that's important, if you could 
elaborate just a moment. You mentioned the word ``management.'' 
It really is a management issue that you are concerned about 
within NNSA, right, and not just the issue of the actual cost 
of these programs, but the perhaps ineffective management 
impacting the cost of those programs and the ability for them 
to be completed?
    Secretary Creedon. I think it's a little bit of both. I 
mean, there is a concern about the cost. Now, I applaud what 
Tom D'Agostino, the Administrator of NNSA, is doing to try to 
get his arms around the costs, particularly of the UPF and the 
CMRR. His decision to go to a 90-percent design basis before he 
does his cost basis is not only the absolute right thing to do, 
but it really is the first time that the NNSA has really 
committed to do that.
    So from a DOD perspective, that's hugely important, is to 
get to that 90-percent cost design in the UPF, and then 
understand the requirements and stick to the requirements. I 
mean, that is a big challenge. It is one that DOD hopes the 
NNSA can clearly implement. But with some of what Tom is doing, 
I think that's the right way to go.
    Mr. Turner. Even though you are concerned, but you are 
encouraged? You are concerned, though, correct?
    Secretary Creedon. I am concerned.
    Mr. Turner. You do believe that there are management issues 
within NNSA that are resulting in delays in programs and 
increased costs?
    Secretary Creedon. Yes. And, I also believe Mr. D'Agostino 
is aware of it, and he is trying very hard to address it, and 
we are going to support him in his efforts.
    Mr. Turner. Right. And our goal as a committee, we are 
going to have to get way past awareness. This is obviously 
something that needs to be addressed, not just awareness.
    Secretary Creedon, turning to the issue of Condition Nine, 
I quoted before Dr. Miller and his statement that in looking at 
the trigger requirement for reporting on Condition Nine, he was 
going to interpret the language as requiring reporting only if 
there is substantially less funding, before defining that 
trigger of substantially less as being 1 percent.
    We now have a budget request that appears to be 
substantially less, and so turning to you with the question 
of--we believe that the report should have been provided to 
Congress in February when the budgetary request came in 
substantially less, again using his standard because I believe 
that the requirement for Condition Nine was just less.
    So where is the report and is the President committed to 
providing that to Congress? And, are we actually going to have 
the Administration arguing that we are not in a substantially 
less, even though we are in a significantly, I believe, 
substantially less request?
    Secretary Creedon. Right now the Department is in the final 
processes of reviewing both the Condition Nine report and the 
related report that is required in the National Defense 
Authorization Act for fiscal year 2012. And as we go through 
the final reviews of both of these reports, we hope to have 
these finished very soon.
    Mr. Turner. So you have concluded that you need to provide 
the report? You believe that substantially less has been 
requested enough to require the Condition Nine report be 
delivered to Congress?
    Secretary Creedon. We are providing the reports.
    Mr. Turner. Thank you.
    On February 21, 2012, we received a letter that is going to 
be provided to you explaining that DOD will not have the New 
START force structure plan for the committee as required by the 
National Defense Authorization Act for fiscal year 2012. We 
were told that the New START plan is being held up by the 
President's mini NPR study, and we don't understand how the 
mini NPR study and the New START Treaty are dependent upon one 
another, and perhaps you can explain why one would be holding 
up the other because they don't to us appear to be related?
    Secretary Creedon. The NPR implementation study is going 
forward apace, and we are also at the same time working on the 
New START force structural levels. But the New START force 
structural levels are still under discussion within the 
building.
    The initial efforts, which again I think General Kehler and 
General Chambers and Admiral Benedict can share some additional 
light on, are the priorities of implementation. So right now 
the priorities of implementation are those things that have 
already been retired. So the 50 Peacekeeper missiles, the 50 
Minuteman III missiles that have already been retired out of 
inventory, that is what the current focus is right this minute.
    Mr. Turner. So is your answer basically then, and I am 
sorry, obviously these are very complex issues to compare, is 
it a workforce capacity issue? Are they unrelated as we believe 
they are unrelated? Or, are you saying that they are related 
significantly enough for one to impact the completion of the 
other.
    Secretary Creedon. The focus right now has been on 
dismantling, addressing those systems that were already 
retired. So, it is a bit of a prioritization within the Service 
budgets that is driving some of this. I am happy to have 
General Kehler add something if he wants.
    But at this point, it is a prioritization within the 
Services' budget. There will be of course a relationship, but 
the relationship for the 2012 budget, the 2013 budget has not 
been specifically tied to the implementation study--I am sorry, 
the analysis of the NPR and the implementation of the NPR.
    Mr. Turner. I have a number of questions for General 
Kehler, but I am going to pass on so that we can get to other 
members asking questions, and I will turn to a second round to 
get to my questions for General Kehler.
    With that, I go to Ranking Member Sanchez.
    Ms. Sanchez. I'll just remind my chairman here that at 4:30 
we push into the cyber threat special briefing, which I have to 
leave for the Democrats. So I know you want to do questions, 
but we do have a second panel also.
    Let's just cut to the chase. Are there any of these changes 
from the 1251 report plan that were due to budget pressures and 
the resulting Budget Control Act, meaning that that translates 
to a less reliable deterrent? In other words, how high has the 
risk gone because we're under these budget constraints? Or, is 
there something that we should have that keeps you up at night 
that you are worried that we're cutting away from?
    To both of you. General.
    General Kehler. Congresswoman Sanchez, I'll start, anyway. 
First of all from an operational perspective, the deployed 
force today, the deterrent force that is out there deployed 
today, in the three words that we use is metrics for safe, 
secure, and effective. And I believe that today it is safe, 
secure, and effective. We are providing and meeting our 
deterrence mission responsibilities. And so, I am comfortable 
and have confidence in the deployed forces that sits out there 
today.
    Second, the question is were there adjustments made that 
resulted in changes to the 2013 budget that were budget driven 
and the answer is absolutely there were. There were clearly 
budget constraints that were placed on us that forced us to 
make tough choices in fiscal year 2013.
    Having said that, my view is that the 2013 budget still 
does, though, maintain the funding for the most critical 
capabilities that we have operationally. I think there are some 
risks, and I believe that those risks we can address 
adequately.
    My biggest concern is what happens beyond 2013. And, I know 
the committee has received a dual letter from both the 
Secretary of Defense and Secretary of Energy that reminds the 
committee that right now we do not have a comprehensive plan in 
place for post fiscal year 2013.
    But the force, I wouldn't want to suggest that the force 
that is deployed today is not safe, secure, and effective. It 
is. I believe it can achieve its deterrence responsibilities as 
we sit there today. In fact, I am extremely confident in that. 
There were tough choices that were made in 2013. I think those 
choices were made with some amount of prudence. I believe that 
we can manage the risk that is associated with those choices, 
provided that we continue down the road that has been 
established in prior budgets and continues in 2013. And what I 
am most worried about is what happens after 2013. And the only 
reason I am worried about that is I just don't see the plan 
yet.
    Ms. Sanchez. Thank you, General.
    Madam Secretary.
    Secretary Creedon. I agree with everything General Kehler 
said. And, there were some difficult choices. Probably the most 
difficult of all was the decision to delay the Ohio class 
replacement submarine by 2 years. That was a very difficult 
decision, but one that we have high confidence that the Navy 
can manage.
    Ms. Sanchez. Thank you.
    Madam Secretary, what is your view of the role of the 
contribution of the Defense Nuclear Facilities Safety Board? I 
know some of them are in here, probably, but please.
    Secretary Creedon. The Defense Nuclear Facilities Safety 
Board does not have a relationship with the Department of 
Defense. The Defense Nuclear Facilities Safety Board is an 
advisory body that was established by the Congress. It was 
established in the late 1980s; it was stood up in the early 
1990s, to provide advisory opinions to the Department of Energy 
in the operations, the nuclear operations, at the Department of 
Energy to ensure that the Department of Energy and now the NNSA 
were conducting their nuclear security operations safely and in 
conformance with the NNSA and the DOE orders, rules, and 
requirements.
    Ms. Sanchez. But, I asked you what is your view? Is it 
needed? Should the Congress rely more on it? Do we need to beef 
it up? Has it done its job, you know, from where you sit?
    Secretary Creedon. From where we sit at DOD, so you want 
sort of the DOD view. I think from the pure DOD view there is 
both recognition that there is a valuable contribution by the 
board. But, I think very often there is a lot of 
misunderstanding about the role of the board. And, I think 
often there is some concern that some of the views and opinions 
of the board, and this is again within the Department, might 
have caused increased costs with certain projects. So, I mean, 
I think the views within DOD vary a little bit. I am not sure 
that there is one uniform view of DOD with respect to the 
board.
    Ms. Sanchez. Thank you. Let me ask just one more. I know we 
are trying to move it along down the line.
    General, when asked in 2010 if there is a military mission 
performed by U.S. tactical nuclear weapons in Europe that 
cannot be performed by either U.S. strategic or conventional 
forces, at the time General James Cartwright, Vice Chairman of 
the Joint Chiefs of Staff, flatly said, ``No.''
    Do you agree with that assessment; and is there any 
military function for tactical nuclear weapons that cannot be 
accomplished by strategic weapons?
    General Kehler. I wouldn't--your question was do I agree 
with that statement, and the answer is I agree with that 
statement partially.
    In terms of purely military use in an unlikely scenario 
where we would have to use a nuclear weapon, I think that we 
have the ability, the U.S. force today has the ability to 
provide extended deterrence through a variety of means, not 
just forward-deployed aircraft.
    The question about forward-deployed aircraft and forward-
deployed weapons is really an alliance question, and I am 
firmly of the belief that it needs to be discussed and debated 
and decided in the context of the alliance.
    Ms. Sanchez. Mr. Chairman, I'll pass it down and when we 
get to second round, I will ask the rest of my questions.
    Mr. Turner. Mr. Lamborn. We will do 5-minute rounds.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you both for 
being here.
    Secretary Creedon, does the Obama administration have any 
plans to reduce the New START limit on deployed U.S. nuclear 
weapons, which is 1,550, and what are these plans?
    Secretary Creedon. Sir, if I understand the question right, 
the Administration is committed to complying with the New START 
Treaty within the central limits of the treaty which is by 
2018. The plan is to comply with that. That is absolutely true.
    Mr. Lamborn. I mean to go below that in the future, below 
the 1,550?
    Secretary Creedon. The President has said that there is 
certainly an interest in making reductions. The Congress has 
also had an interest in making reductions, particularly with 
the nonstrategic warheads. There is a hope, as I mentioned in 
my opening statement, that as we go for future reductions, that 
we can include these non-strategics and that we can look--again 
with Russia--in total stockpile levels. And, so there is no 
plan. There is certainly the hope that we can get there with 
Russia.
    Mr. Lamborn. You say an interest, on the part of whom to 
make these further reductions?
    Secretary Creedon. In the debate on the START Treaty, one 
of the primary considerations was looking at reducing the 
nonstrategic warheads, which have not been part of treaties 
heretofore, and that is a very large consideration in terms of 
reducing future stockpiles.
    Mr. Lamborn. Okay. Let me ask you a broad, philosophical 
question. Do you believe that U.S. nuclear weapons are a threat 
to world peace and safety? Just a broad, philosophical 
question.
    Secretary Creedon. Nuclear weapons?
    Mr. Lamborn. U.S. nuclear weapons?
    Secretary Creedon. U.S. nuclear weapons right now are very 
important to maintaining deterrence in this world.
    Mr. Lamborn. But the President is talking about reducing 
them further, though they play a role, a beneficial role, it 
sounds like?
    Secretary Creedon. Yes, they do. And the President has said 
that as long as there are nuclear weapons, there will be a 
safe, secure, reliable and effective nuclear deterrent, and it 
is important and he's committed to sustaining that.
    Mr. Lamborn. Okay, thank you.
    Let me shift to what the chairman built on, let me build on 
something he pointed out. Ratifying the New START Treaty was 
based on at least in part an agreement to adequately fund the 
modernization of our nuclear stockpile; correct?
    Secretary Creedon. It was a large element of the discussion 
during the ratification.
    Mr. Lamborn. Okay. Thank you. And, that was done during a 
lame duck session.
    Given that if this agreement to adequately fund 
modernization is unfulfilled, whether it is by the 
Administration or Congress or both, should the U.S. consider 
withdrawing from the treaty that was based on doing that?
    Secretary Creedon. That is the topic of the report that the 
Department is currently submitting. Right now the deterrent is 
in fact being maintained, safely, securely, and reliable, and 
we are in fact planning and focusing on modernizing both the 
strategic delivery systems and also the weapons complex. It's 
just at a somewhat lower level, and that's largely driven by 
the constraints of the Budget Control Act.
    Mr. Lamborn. Would you agree that modernization, if it does 
not take place, that calls into question our participation in 
the New START Treaty?
    Secretary Creedon. And, what I am saying is that with the 
budget that we have submitted, we are in fact carrying out the 
commitment to modernization.
    Mr. Lamborn. But, should that commitment not be fulfilled 
in the future, should that lead to a discussion of withdrawing 
from the treaty?
    Secretary Creedon. That is a very hard question to answer 
in the abstract and one that would have to look at what exactly 
that future situation really was. Right now, here, we are 
committed to the modernization of both the complex and the 
delivery systems.
    Mr. Lamborn. General Kehler, I am seeing a lot of risk in 
the Administration's plan for the nuclear stockpile. We've 
talked about some of the specifics, the Ohio submarine delay, 
delaying CMRR, et cetera, et cetera. Where should we draw the 
line on risk acceptance as we don't do some of these steps; and 
how do we know when we have reached that line?
    General Kehler. Congressman, that's a situational answer. 
As much as I hate to say ``it depends,'' it depends.
    At this point in time, I can look at the modernization 
efforts, the sustainment, first of all, efforts that we have 
for the triad, and by the way the budget sustains the triad, 
and I think that is the right thing to do. As we look to the 
future, I am convinced that the triad continues to serve us 
well. So the budget supports the triad. The budget continues to 
support sustainment of the existing triad, although there have 
been some adjustments made to various pieces of that. The 
budget supports modernization of the triad with a question mark 
about what we should do with the land-based deterrent, but an 
analysis of alternatives that's going to be under way.
    So at this point in time, as I look at that, I am 
comfortable that we are not at the point where I would stand up 
and say operationally we can't meet the objectives that we 
have. The investment has to continue in our command and control 
system. I think that continues to be important. There is a 
little discussed piece of this for intelligence surveillance 
and reconnaissance as well. I think that is important as we go 
forward. And then there is the issue about the weapons and the 
weapons complex where again, as I say, the biggest risk that I 
think we are taking in that regard, even though I would have 
not preferred to see the Ohio replacement slide to the right, I 
think that that increases some risk, but I think it's 
manageable.
    The same with moving the B61 life extension to the right. I 
think that increases some risk, but I believe that that's 
manageable as well. I cannot draw firm red lines on a paper for 
you today.
    I can tell you, though, that we need to watch this very 
carefully as we go forward, and in particular, in the weapons 
complex. The extended complex past 2013, I am still concerned 
about the lack of a firm plan as we go forward. In every other 
case I see the plan.
    Mr. Lamborn. Thank you.
    Mr. Turner. I am going to take the chairman's prerogative 
as we go on to the next questions and just insert for a second 
some things that we all can agree upon that I don't want to 
become confusing as a result of some of the language that is 
being used in the answers and the discussion.
    The Budget Control Act does not dictate any reductions that 
we are dealing with in this subcommittee with respect to NNSA 
or nuclear modernization. They are choices being made by the 
Administration. The answers that you are providing of the 
effect of the Budget Control Act is merely your recognition of 
the budget pressures that you have. I want to make that clear 
so that no one believes that the Budget Control Act dictates 
the choices that the Administration has made that we are now 
dealing with in the reductions to NNSA and modernization.
    Secondly, as I had said in my opening statement, the issue 
of the timing of modernization to the adoption of New START 
Treaty was expressly stated by the Senate in Condition Nine and 
was expressly concurred with by the President. So it is not 
merely conjecture or opinion when people question about the 
issue of New START and the nexus between modernization.
    Thirdly, with respect to the 1251 and the modernization 
plan, both the President and NNSA and DOD have identified it 
with respect to the modernization plan as being necessary and 
essential, not merely desirable. That is why we have this issue 
of the concern of the Administration's choices that it made in 
its implementation of the Budget Control Act. That struggle 
that we're having as to how these items that had previously 
been identified as necessary and essential could fall now to 
merely desirable is part of what our essence of our questions 
are.
    With that, I will turn to Mr. Garamendi.
    Mr. Garamendi. I pass.
    Mr. Turner. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank the 
panel for being here. General Kehler, thank you for your great 
service to our country. And Secretary Creedon, thank you for 
the work you are doing.
    General Kehler, just review for me if you would some of 
your biggest concerns about the stockpile delivery systems and 
the weapons complex itself? And, I guess as part of that, if 
you would include your perspective of are these concerns 
addressed within the fiscal year 2013 budget and program plan?
    General Kehler. Congressman, I would say if I had to 
summarize my concern across the board in today's deployed 
force, as well as looking at the future, and particularly in 
the weapons complex, the word that I would use is ``aging.''
    When I look across the force today, the force in every 
aspect of the triad, the force is aging. What we know is a 
couple of facts. One fact that we know is that the current Ohio 
class ballistic missile submarines will reach the end of their 
lifetime. They will reach that. There is not a hard line to 
draw in the sand, but it is a risk assessment. And, the Navy 
has drawn a risk line and said that beyond this point we do not 
feel comfortable fielding the current generation of Ohio 
submarines. So there is a date out there that there will need 
to be a replacement.
    For the bomber, we are continuing to fly, of course, B-52s 
that are aging, and some would say aged, and the same for the 
B-2A which is now a platform that gives us great service, and 
so does the B-52H model. But both of them, we need to make some 
investments in for sustainment, and we need to, especially in 
light of other activities in the world today. We need to invest 
in a long-range, strategic strike platform that is going to be 
dual capable, either conventional or nuclear capable.
    So we need to get on with that, to deal with the problems 
that we have in the bomber force.
    We don't say much about the tanker, but we need a tanker 
that goes with it, by the way.
    Regarding the ballistic missile, the land-based ballistic 
missile, we believe that we can take the Minuteman to 2030 in 
its current form with sustainment investment. Beyond that, I 
think we have a serious set of questions to ask ourselves about 
what shape and form of the next ballistic missiles should look 
like on the land.
    In the weapons complex, the same issue is there. Aging. The 
complex itself is aging and the weapons are aging. The B61, 
which is going to be needed, we believe, to arm the new bomber 
platform, is aging in terms of terms of its electronics 
components, and it is time for a life extension program there.
    The W76 which arms the vast majority of the submarine 
force, also is under way for life extension, but we need to 
continue and bring it to conclusion as best we can as soon as 
we can.
    Beyond that, we have other weapons that will come down the 
pike that we need to take a hard look at and continue with 
plans to modernize them in some way, whether it is a common 
explosive package as we go forward or such.
    Nuclear command and control is another.
    So the question is: are those all supported in the fiscal 
year 2013 budget. In their critical aspects, the answer is yes, 
they are supported in the fiscal year 2013 budget. They are not 
supported the same way that we saw a couple of budgets ago. 
We've looked at the risks associated with the various impacts 
of the budget on those platforms. And again, my operational 
assessment is that we can make the appropriate adjustments. I 
will be very concerned if we make more adjustments beyond 
these.
    I think that further delay to the Ohio replacement, for 
example, will jeopardize our collateral work with the U.K., for 
example, and I think that would be a mistake. I think that 
taking more risk in the current Ohio class is not a prudent 
thing to do.
    So, I think that we are reaching some points where further 
adjustments would cause me to have to reassess whether I 
believe that the operational force is being taken care of.
    Mr. Langevin. Thank you, General.
    Secretary Creedon, let me turn to the triad, if I could. 
There has been much deliberation recently over the need for a 
triad, including the 2010 Nuclear Posture Review which 
considered and rejected, of course, the elimination of one or 
more legs of the triad. What are your views on the need for a 
triad and do you believe we should maintain all three legs of 
the triad indefinitely?
    Secretary Creedon. Sir, we are very supportive of the 
triad. The budget supports the triad. The Nuclear Posture 
Review supports the triad. We need to sustain and maintain the 
triad. As General Kehler detailed, the fiscal year 2013 budget 
does that. But, there are clearly some tradeoffs that we have 
made, and we have to watch this every year to make sure that 
the budget requests do in fact sustain the triad.
    Mr. Langevin. Very good, I would agree.
    Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Thank you. General Kehler, I have a great deal 
of respect for both your intellect, your contributions and 
service and your choice of language, but I must ask, being a 
gentleman of Ohio, if you would please not refer to an Ohio 
replacement. It is the Ohio class sub replacement, and it would 
make me feel more comfortable as we go through this.
    General Kehler. Congressman, I stand corrected, sir. Thank 
you.
    [Laughter]
    Mr. Turner. Thank you. I turn to Mr. Brooks.
    Mr. Brooks. General Kehler, again, thank you for your 
service to this country. This question will be for you.
    According to the information I have received from 
subcommittee staff, President Obama's fiscal year 2013 budget 
request proposes to terminate the common vertical lift support 
platform. This helicopter was to replace the Air Force UH-1N 
that fill critical roles in security in the ICBM 
[intercontinental ballistic missile] field. Further, according 
to committee staff, the average aircraft age is 41 years for 
these helicopters, and the Air Force uses them to provide 
support for nuclear weapon convoys, emergency security 
responses, activities in the National Capital Region, and other 
missions. The Air Force reports that the termination of the 
program will save $950 million over the next 5 years and that 
current UH-1N helicopters will be unable to fulfill their 
mission requirements and will continue to operate under 
waivers.
    The question is: What is the Air Force's plan to fill the 
gap and capability left by cancelation of this program? Is it 
simply the waiver process, is there something else?
    General Kehler. Sir, I will defer to the Air Force on the 
answer to that question. I know we have General Chambers here. 
I don't know if he is prepared to answer that.
    But let me address it from a standpoint that I can. About a 
week ago, in fact, exactly a week ago, I was airborne in one of 
those UH-1s in the missile complex at Francis Warren in 
Wyoming. I believe that those helicopters are safe to fly in. I 
know they are using them every day even though some would say 
those are aged platforms as well.
    I am concerned for the long term, and the UH-1 will not 
meet the security needs as we go to the future. I believe they 
are doing extraordinary things with those platforms today, and 
I know that the Air Force is looking very hard at whether they 
have some near-term alternatives to help with the security 
improvement, and then what to do for the long term.
    I understand from talking to the Chief of Staff of the Air 
Force that this was very much a budget-driven decision as well.
    But I will ask Bill Chambers. Bill, is there anything else?
    General Chambers. Congressman Brooks, this was one of the 
difficult decisions the Air Force made in light of the budget 
constraints. We are deferring the requirement. The program that 
you heard about last year was terminated, but a new acquisition 
strategy for replacement for the vertical lift requirement both 
for missile fields and for the National Capital Region and for 
personnel recovery are all part of a fresh look at a new 
platform.
    Meanwhile, one of General Kehler's component commanders, 
General Kowalski at Global Strike Command is taking steps to 
mitigate the effect of the continued use of the UH-1. First of 
all, he has applied more money to sustain the platform. He has 
enhanced remote surveillance of the launch facilities. He has 
added structural enhancements to enhance onsite security, and 
we continue to look at tactics, techniques, and procedures to 
enhance the use of the UH-1, to include putting UH-1s on 24-
hour alert to make them more responsive to security needs.
    So, this is a risk we didn't like accepting. We are working 
it, and have some mitigation measures in place.
    Mr. Brooks. If I can just follow up with a question, with 
respect to these Hueys, do you have a judgment as to how much 
longer we can continue to use them and they meet their mission 
requirements? They're 40-41 years average age now.
    General Kehler. I do not have a specific answer. I would 
like to provide that for the record if we could.
    [The information referred to can be found in the Appendix 
on page 241.]
    General Kehler. I will tell you this, though. My assessment 
and because I am a combatant commander, ultimately the 
responsibility for security in the missile complexes and for 
the rest of our operational force is my responsibility. I 
believe that in the ICBM complex specifically, and if you 
extend this to other legs of the triad as well, security is far 
better today than it has ever been, in the ICBM complex in 
particular, through a combination of technology that has been 
brought to the missile fields through remote cameras and other 
observation methods that have been put in place, plus 
additional training, plus additional firepower that has been 
put into the missile complexes. I believe that they are far 
more secure today than they have ever been.
    Mr. Brooks. Great. Thank you, and I had hoped to have a 
little bit more time for this last question, but each of you 
have talked about the Budget Control Act. For clarity, your 
testimony----
    Mr. Turner. Mr. Brooks, actually since it is just currently 
the three of us, I will certainly provide you as much time as 
you would like.
    Mr. Brooks. Thank you.
    With respect to your testimony concerning the Budget 
Control Act and the cuts, has it been strictly the first 
tranche of cuts that you have been referencing, or did your 
statements also include the impact of sequestration?
    Secretary Creedon. No, sir. It's just the first tranche of 
cuts.
    Mr. Brooks. That being the case, what kind of impact will 
sequestration have, which is the law of the land, goes into 
effect January 1, 2013, have on our atomic energy defense 
activities and nuclear force programs and capabilities?
    Secretary Creedon. You know, that is a very good question 
and one frankly for which I don't have an answer. The Secretary 
has been very clear that it would have a devastating effect, 
and we have not looked at exactly how that would be spread 
across the various elements. I can only reiterate what the 
Secretary has said, and it is just a devastating effect. But I 
don't know the answer to that question because we haven't done 
that allocation.
    General Kehler. Congressman, nor do I. That would be a 
question of priorities and it would be a question of depth of 
cut, and I would echo Secretary Creedon's comment with the 
Secretary of Defense. He's used the word ``devastating.''
    Mr. Brooks. The sequestration is 8\1/2\ months away. As I 
understand the President's position, he has said he would veto 
changes by the Congress to that law. Are you not conducting any 
drills or do you not have any plans in place for when these 
cuts occur January 1, 2013, 8\1/2\ months away?
    Secretary Creedon. Sir, I think the Secretary has addressed 
that in some of his hearings. From a policy perspective, I can 
tell you I have not been personally involved in anything. I 
think the Secretary has made it clear that at the top line it 
would just be an extraordinarily devastating outcome. I don't 
have an answer for you.
    Mr. Brooks. General, have there been any drills or plans to 
work through the kinds of cuts associated with sequestration on 
your command?
    General Kehler. We are not doing anything in my command to 
prepare for sequestration.
    Mr. Brooks. Is there any plan to plan? We are talking about 
something that is pretty dramatic that is only 8\1/2\ months 
away, and it's the law of the land. Do you have a judgment as 
to when a plan will be in place? Or, are we just going to wait 
until December 31 and wake up on January 1 and start planning 
at that point?
    Secretary Creedon. I don't know the answer to that 
question. We have not, as far as I have seen, we have not done 
that. Certainly, again, I have not been involved in anything at 
my level.
    General Kehler. Same for me, Congressman. The Budget 
Control Act reduction that was taken, the way it was taken 
inside the Department, was applied against the new strategy. 
The new strategy was written, and then the Budget Control Act 
numbers were put against it. That's where we are.
    Mr. Brooks. Well, I am going to make a comment in response 
to all this then. You know, I am just a freshman, new kid on 
the block. But, we are talking about $40-50 billion in cuts, 
maybe 60, national defense depending on your definition under 
the statute of national defense. And, we're looking at 8\1/2\ 
months away, and it is very disconcerting to discern or to hear 
that the executive branch may have no plans as to how that is 
going to be implemented.
    We've heard different theories before HASC as a whole. For 
example, over on the Senate side, one person from the Pentagon 
talked about it being the equivalent of a Pentagon shutdown. I 
believe it was an admiral. My memory may be in error, so I 
don't want to use his name, but you could find it out Googling 
it real quick.
    Then in HASC, we had testimony that there would be a 
stoppage of all contracts. Every single contract that the 
Federal Government has, that the Department of Defense has, 
that the Pentagon has with the private sector, and they would 
try to work in somewhere in the neighborhood of 8 to 9 percent 
on the low side, 13 to 14 percent on the high side, of prorated 
cuts to every contract. Now how you do that with a ship or what 
part of an airplane wing do you not put on, this is just very 
disconcerting. It would seem to me that we need to have a plan, 
and I understand that you all may not be the ones in the 
position to make that kind of a decision, but to the extent you 
can communicate my views to higher-ups I would very much 
appreciate it.
    Mr. Turner. Thank you. We'll consider the extended time 
that you had, if you do not mind, being your second round, 
which will then go into the second round.
    My questions are directed to General Kehler, as I 
indicated, but I'm going to first turn to Mr. Lamborn in case 
he covers some of the issues on his second round and we don't 
have repetition.
    Mr. Lamborn. Thank you. Just two or three questions here.
    First of all, I am concerned that the credibility of our 
extended deterrent commitments may fall into serious question, 
especially if we do unilateral cuts below the New START limit 
of 1,550. What steps are we taking or planning to be taking to 
reassure our allies of our commitment to providing a credible 
deterrent? And at what point will you make unilateral 
reductions in our nuclear weapons? Do we increase the 
discussion, the risk, the commitment of our allies, roughly 29 
or 30, who are under our nuclear umbrella right now, to begin 
developing their own nuclear weapons programs?
    For both of you.
    Secretary Creedon. Sir, the Secretary said last month that, 
and this is direct quote, he said: ``We have gone through a 
nuclear review and presented options to the President. But let 
me be very clear that these options are in no way unilateral.''
    Those are the words of the Secretary of Defense. So with 
that in mind, the work that we have done, that we did to 
engage, to reach out, and to discuss with the allies in support 
of the START Treaty was extensive. I was not in the Pentagon at 
the time that all happened. But having understood a lot of that 
and having also understood what is going on now with respect to 
discussions with our allies, we are in very close contact with 
our allies. And, the concern that you raised about others 
developing nuclear weapons is a very serious concern that we 
take very seriously. And, clearly that is not to say the least, 
that is not a desirable goal. That is not a desirable outcome. 
So, we do take that very seriously, and are working very hard 
to make sure that that extended deterrence is in fact credible, 
believable, real, effective.
    Mr. Lamborn. General.
    General Kehler. Congressman, I would just add that I agree 
with what Secretary Creedon just said. The credibility of our 
extended deterrence begins with our declaratory statements 
about our commitment to our allies and our alliances, and it 
continues from there through the demonstration that we have of 
our commitment in terms of capabilities. And in that regard, we 
still have dual capable aircraft in Europe. We have weapons 
forward-deployed in Europe. Those are conversations for the 
alliance to have regarding the future of that element of our 
commitment. But the other part of our commitment is a continued 
commitment from our strategic triad, in particular our ability 
to have what are essentially dual capable long-range bombers 
today that have been used for the last 10 years in conventional 
operations but are capable of delivering nuclear weapons.
    And so, in both of those regards, we have had a number of 
our allies visit with us in Strategic Command. We've gone over 
in great detail with them our visible commitment as well as our 
capabilities. And, I think they understand very well that it is 
a real and credible commitment that we have and backed up by 
real and credible capabilities.
    Mr. Lamborn. I believe you both are telling us very openly 
and honestly everything that you're aware of. It is just that 
when I hear some of the rumors floating around about massive 
reductions in our nuclear stockpile and I see our President 
saying unusual things in an open microphone it just makes me, 
you know, really, really wonder if there is something there 
that we don't know about. So, thank you for your answers. I 
believe you were giving us everything you are aware of.
    What are the advantages or disadvantages of deMIRVing our 
ICBMs? Are there only advantages, or are there also 
disadvantages?
    General Kehler. Congressman, I think the advantages are 
twofold. First of all, it is one of the ways that we are going 
forward to get down to the central limits of the New START 
Treaty, the 1,550 warheads.
    Secondly though, there is a stability issue related to the 
intercontinental ballistic missiles and how many warheads they 
carry, and as part of the policy discussion that goes with the 
deterrence, there has been a long-standing view that a highly 
MIRVed [multiple independently targetable re-entry vehicle-
equipped] ICBM in an existing silo can in fact be 
destabilizing. And, the theory goes that that is because it is 
theoretically vulnerable; and, therefore, the more valuable it 
is with the number of warheads that you hang on it, the more 
likely it is that an adversary of any kind would want to try to 
eliminate it quickly and perhaps stimulate some kind of a 
response in a crisis.
    And so, the idea is to bring them down to one reentry 
vehicle per ICBM to essentially reduce their strategic value. 
That's the pathway that we have been on for quite some time. I 
support that. I think that that is the right way to go forward 
for both of those reasons. I also believe that maintaining the 
ability to go back to a MIRV in the future as a hedge is also 
the right thing to do.
    Mr. Lamborn. Because it has a deterrent value; right? The 
more MIRV capable, the more deterrent value, apart from what 
you said a minute ago?
    General Kehler. Yes, sir. A hedge strategy has deterrent 
value. I would agree with that, yes, sir.
    Mr. Lamborn. And that kind of leads to my last question. 
What is the Air Force's plans, and if you need to bring someone 
else up or I should wait for Panel 2, let me know, to a 
nuclear-capable air-launched cruise missile and when is such a 
capability needed and where do we stand with that?
    General Kehler. I'll take that one.
    We are committed to retain a standoff weapon for the 
current generation of long-range bombers, specifically the B-
52. We're also committed to have a standoff capability as well 
as a penetration capability in the new long-range strike 
platform. By the way, that will be both conventional and 
nuclear. So, we will have conventional standoff weapons as well 
as the ability to penetrate and deliver weapons, et cetera. 
And, I support both of those.
    The current air-launched cruise missile is also aging. We 
are keeping it in good shape today with a series of sustainment 
investments. And so, right now it looks like the long-range 
standoff weapon will be necessary in the mid to late 2020s, 
just depending on the progress of the new long-range strike 
platform. And, we believe and the Air Force believes, my Air 
Force component believes that we can continue to sustain the 
ALCM [Air-Launched Cruise Missile] and the W-80 warhead that is 
in it until then.
    We are going to watch that very carefully, though, to make 
sure that is true. And, if there are indications that that is 
not true, then we intend to work with the Air Force to try to 
accelerate the long-range standoff weapon.
    Mr. Lamborn. Okay, thank you.
    Mr. Turner. Thank you.
    General Kehler, you are the combatant commander for nuclear 
weapons, and as such, you are the warfighter for implementing 
the President's nuclear weapons employment guidance and the 
President's Nuclear Posture View. So, these are your 
requirements that you are implementing. So, what I would like 
to turn to is the first section of questions that I was asking 
the Secretary going to the issue of DOD financial support for 
NNSA, concerns that you have concerning both with management 
and performance of NNSA on how it goes to the function that you 
have. We already went through the long list of things that are 
being delayed and are not being completed, and they're not all 
budgetary, as were acknowledged in this hearing. Are you 
satisfied with NNSA's performance? Do you have concerns about 
management and performance?
    General Kehler. Sir, first of all, have I mentioned the 
need to have a replacement for the Ohio class ballistic missile 
submarine, just so I am clear on that?
    Second, Congressman, I would say this: We are always 
satisfied with the product that we get from NNSA. The concern 
that I have is making sure we are on a path to get the product. 
That is as clearly I think as I can describe it.
    Mr. Turner. There are signs that are troubling to you; 
right? You would have that concern even if they were 
performing; right? But they are not necessarily performing; 
right? So your concern is being met with actual performance 
issues that need to be addressed?
    General Kehler. Mr. Chairman, the word ``performance'' 
troubles me a little bit here because, again, in the product 
that we get from NNSA, from the laboratories, through the 
industrial complex, I don't have any complaints.
    Mr. Turner. The product you have?
    General Kehler. I am sorry, sir?
    Mr. Turner. What you have you mean?
    General Kehler. Right.
    Mr. Turner. The thing we are focusing on are the products 
that you want to get, the future ones. And those you have from 
what I understand concerns about the management structure, 
performance, and I would like to hear those.
    General Kehler. Yes. What I have are concerns about two 
things. Number one, I have a concern about what happens beyond 
fiscal year 2013, as I have said a number of times. I think the 
words that we have been using here is whether or not we have a 
comprehensive and definitive plan, and the answer right now is 
we do not. We do not have a comprehensive or definitive plan. 
That concerns me as I sit here as the customer, if you will, as 
the user of the product that is put out by NNSA.
    Mr. Turner. In addition to the absence of the plan, you'd 
have concern about the substance of that plan; right? I mean, 
there are performance timelines and metrics that you need 
satisfied?
    General Kehler. Exactly.
    Mr. Turner. And, so both that plan has to be completed, it 
has to be substantively sufficient to meet your needs, and then 
there has to be the capability of implementing it?
    General Kehler. Yes, sir.
    Mr. Turner. And I believe you have concerns on those three, 
even beyond just the existence of the plan, what the substance 
of the plan would be, and the ability of NNSA to implement it?
    General Kehler. To execute it; yes, sir. And, I would throw 
all of the stuff you mentioned, when I say I am concerned about 
the plan, those are the things that I mean. It is all of those 
factors, and then being able to implement it with sufficient 
investment that goes behind that. And again, as I said in my 
opening remarks, my job is to be the advocate for these things. 
And, as long as I am the advocate for these things, I will have 
concerns until we get to the point where there is a plan in 
place that we know we can execute.
    Mr. Turner. General Kehler, your new headquarters is being 
built through the military construction authorities available 
to the Department of Defense and through the oversight of the 
authorization and appropriations committees of Congress. Do you 
have confidence in that process and what are the attributes of 
that process? I am going to give you a specific.
    Would you say that it's a plus for you to know that going 
into a project that 20-percent design stage implementation can 
occur? When you are at that 20 percent and you've got the 
approval, the congressional authorizers and appropriators are 
all on board with the project, Congress has committed to 
providing the authorizations and appropriations needed for the 
project every year. Would you be concerned if you didn't know 
each year whether the project was going to be funded because of 
a continuing resolution or final appropriations bill that may 
not come until December or even April for a fiscal year that 
has begun on October 1? Basically as you are looking at your 
construction, the processes that Congress goes through affects 
your confidence and your ability for completion. You have a 
standard of a 20-percent design stage and there certainly are 
some benefits to that, there are some benefits to the current 
processes that you have. Can you speak to that for a minute and 
also then your concerns of how congressional unstable funding 
can affect your completion?
    General Kehler. Mr. Chairman, I would just say that I 
believe that the basic rules of acquisition apply in the case 
of a major project, in our case a new command and control 
complex, that is supported by military construction. First, you 
have to have good requirements. And second, you have to have 
stability. You have to have stability in requirements and you 
have to have stability in investment. And so, my answer would 
be that stability, whether that's annual appropriations from 
Congress to make sure that we are stable or other kinds of 
stability are critical to make sure that we can deliver on 
time.
    Mr. Turner. Thank you.
    With that, I want to thank this panel for their answers. 
And we will be moving on to Panel 2, and so we will take a 
short recess as we are changing panels. Thank you.
    [Brief recess.]
    Mr. Turner. We will reconvene.
    On our second panel, which I would like to welcome, we have 
the Honorable Thomas P. D'Agostino, Administrator, NNSA and 
Under Secretary for Nuclear Security, U.S. Department of 
Energy; we have Mr. David G. Huizenga, Senior Advisor for 
Environmental Management, U.S. Department of Energy; and the 
Honorable Peter S. Winokur, Chairman, Defense Nuclear 
Facilities Safety Board.
    We will begin with Mr. D'Agostino.

STATEMENT OF HON. THOMAS P. D'AGOSTINO, ADMINISTRATOR, NATIONAL 
 NUCLEAR SECURITY ADMINISTRATION, UNDER SECRETARY FOR NUCLEAR 
              SECURITY, U.S. DEPARTMENT OF ENERGY

    Secretary D'Agostino. Chairman Turner, members of the 
committee, good afternoon and thank you for having me here 
today to discuss the President's fiscal year 2013 budget 
request. Your ongoing support for the men and women of NNSA and 
the work they do, as well as your bipartisan leadership on some 
of the most challenging national security issues of our time 
has helped keep the American people safe, protect our allies, 
and enhance global security.
    In February 2013, President Obama released his budget for 
fiscal year 2013. Now more than ever before, the fiscal 
constraints facing our Nation cause us to ensure that we are 
targeting the Nation's investments in nuclear deterrent and 
nuclear security with precision and effectiveness.
    I want to assure you that the NNSA is being thoughtful, 
pragmatic, and efficient in how we achieve the President's 
nuclear security objectives and shape the future of nuclear 
security.
    President Obama shared his vision for a united approach to 
our shared nuclear security goals in Prague in April of 2009. 
His request for the NNSA in 2013 is $11.5 billion, an increase 
of $536 million over the fiscal year 2012 appropriation. This 
demonstrates a continued affirmation of the Administration's 
commitment to investing in a modern, 21st-century nuclear 
security enterprise. We are focused on continuing our critical 
work to maintain the Nation's nuclear stockpile and ensuring 
that it remain safe, secure and effective.
    The budget request provides $7.58 billion for the weapons 
activities account to implement the President's nuclear 
deterrent strategy with our partners at the Department of 
Defense. The President continues to support our life extension 
programs, including funding for the B61 warhead activities. 
Consistent with the President's 2012 request, we have requested 
increased funding for our stockpile systems to support the W-78 
and W-88 life extension studies.
    Our request for investments in the science, technology, and 
engineering that support NNSA's missions will ensure that the 
national security laboratories continue to lead the world in 
advance scientific capabilities. For over a decade, we have 
been building the tools and capabilities needed to take care of 
that stockpile, as well as a large and dynamic range of 
national security work, before utilizing these tools and 
capability towards the mission of maintaining a safe, secure 
and effective stockpile while performing the necessary life 
extension work. Additionally, these capabilities provide a 
critical base for our nonproliferation and counterterrorism 
work, allowing us to apply our investments to the full scope of 
the nuclear security mission.
    This budget includes $2.24 billion to maintain our 
infrastructure and execute our construction projects. To 
support our stockpile and provide us with world-class 
capabilities, we need to modernize our Cold War-era facilities 
and maintain the Nation's expertise in uranium processing and 
plutonium research. We are adjusting our near-term plutonium 
strategy by deferring--not canceling--by deferring construction 
of the Chemistry and Metallurgy Research Replacement Nuclear 
Facility Project in order to focus our limited resources on the 
highest priority requirements.
    We can meet our plutonium needs on an interim basis, using 
the capability and expertise found in existing facilities. 
Deferring of this project will have an estimated cost avoidance 
of approximately $1.8 billion over the next 5 years, which will 
help offset the cost of other priorities such as the weapons 
lifetime extension programs and construction of the greatly 
needed Uranium Processing Facility at the Y-12 national 
security complex in Tennessee.
    The UPF project is our highest priority capital project 
requiring immediate modernization. As you know, our deterrent 
is only one part of NNSA's mission. 2013 will see us continue 
to advance the President's 4-year goal to secure vulnerable 
nuclear material around the world. The budget request provides 
$2.46 billion we need to continue critical nonproliferation 
efforts.
    Our continued focus on innovative and ambitious 
nonproliferation and nuclear security is vital. The threat is 
not gone, and the consequences of nuclear terrorism and state 
proliferation would be devastating. Detonation of a nuclear 
device anywhere in the world would lead to overwhelming 
economic, political and psychological consequences. We must 
remain committed to reducing the risk of nuclear terrorism and 
state based proliferation.
    Anne Harrington and I recently attended the nuclear summit 
in Seoul, South Korea, where the President and over 50 world 
leaders renewed their commitment to nuclear security. We know 
there is no silver bullet solution which is why we continue to 
implement a multilayered strategy to strengthen the security of 
nuclear material around the world and maintaining our 
commitment to detecting and deterring nuclear smuggling.
    $1.1 billion is requested for the Naval reactors program, 
which will support the Navy's effort to complete the Ohio class 
replacement submarine and modernize key elements of our 
infrastructure. Support for the President's request is 
essential for our continued ability to support the mission of 
the nuclear Navy.
    This budget request also gives us the resources we need to 
maintain our one of a kind emergency response capabilities, 
allowing us to respond to a nuclear or radiological incident 
anywhere in the world and anticipate the future of nuclear 
counterterrorism and counterproliferation.
    We are committed as well to being responsible stewards of 
the taxpayer dollars. We have taken steps to ensure that we are 
building a capabilities-based infrastructure and enterprise 
focused on future enterprise requirements. We view this 
constrained environment as an additional incentive to ask 
ourselves how can we rethink the way we are operating, how we 
can further innovate, and how we can improve our business 
processes.
    We are not resting on old ideas to solve tomorrow's 
problems. We are shaping the future of security in a fiscally 
responsible way.
    Budget uncertainty adds cost and complexity to how we 
achieve our goals. You have been very supportive of our efforts 
in the past, and I ask you again for your help in providing the 
stability we need to do our jobs efficiently and effectively.
    We are improving our business processes by implementing 
international consensus standards on quality management, and we 
are looking forward to shaping the proper workforce through our 
workforce analysis. For example, taking a look at international 
standards such as ISO 9001. We are continuously improving, and 
I look forward to getting into the details in the question and 
answer session.
    [The prepared statement of Secretary D'Agostino can be 
found in the Appendix on page 101.]
    Mr. Turner. Mr. Huizenga.

      STATEMENT OF DAVID G. HUIZENGA, SENIOR ADVISOR FOR 
      ENVIRONMENTAL MANAGEMENT, U.S. DEPARTMENT OF ENERGY

    Mr. Huizenga. Good afternoon, Chairman Turner and members 
of the subcommittee. I am honored to be here today with my boss 
and with Chairman Winokur as well to discuss the important, 
positive things we are doing for the Nation through the ongoing 
efforts of the environmental management program and to address 
your questions regarding our fiscal year 2013 budget request.
    Our request of $5.65 billion enables the Office of 
Environmental Management to continue the safe cleanup of the 
environmental legacy brought about from five decades of nuclear 
weapons development and Government-sponsored nuclear energy 
research. Our cleanup priorities are based on risk and our 
continuing efforts to meet our regulatory compliance 
commitments. Completing cleanup promotes the economic vitality 
of the communities surrounding our sites and enables other 
crucial daily missions to continue. By reducing the cleanup 
footprint, we are lowering the cost of security and other 
overall activities that would otherwise continue for years to 
come.
    In August 2011, the Office of Environmental Management was 
aligned under the Office of the Under Secretary for Nuclear 
Security. This realignment promotes the natural synergies that 
exist between the Office of Environmental Management and NNSA.
    For example, at the Oak Ridge National Laboratory, we are 
working with NNSA to accelerate the transfer of certain 
components of the uranium-233 inventory. This inventory is 
valuable for national security applications and supports NNSA's 
missions related to safety, nuclear emergency response, and 
special nuclear material measurement and detection. This 
innovation and initiative will result in cost savings for our 
program and enable us to move forward with cleanup of nuclear 
facilities in the heart of the Oak Ridge National Laboratory.
    Over the years, the Office of Environmental Management has 
made significant progress in accelerating environmental cleanup 
across the departmental complex. For example, last December at 
the Defense Waste Processing Facility in our Savannah River 
site in South Carolina, we solidified a record 37 canisters of 
highly radioactive waste, marking the most canisters filled in 
1 month in the facility's 15-year history.
    Out west at the site in Moab in Utah, we've celebrated the 
removal of 5 million tons of uranium tailings from the site to 
a safe location away from the Colorado River.
    Through 2011, we safely conducted over 10,000 shipments of 
transuranic waste to the waste isolation pilot plant in New 
Mexico, the world's largest operating deep geologic repository. 
As you can see from these accomplishments, the Office of 
Environmental Management has made great progress and will 
continue to do so with your help.
    We cannot have achieved such notable accomplishments 
without an outstanding Federal and contractor workforce. The 
safety of our workers is a core value that is incorporated into 
every aspect of our program. We have maintained a strong safety 
record and continuously strive for an accident and incident 
free workplace. We seek to continue improvements in the area of 
safety by instituting corrective actions and aggressively 
promoting lessons learned across the sites.
    In collaboration with the Department's Office of Health 
Safety and Security and our field sites, we are working to 
achieve a stronger safety culture within our program and 
thereby improve safe construction and operation of our 
facilities.
    In this regard, on March 22, I attended a Defense Nuclear 
Facilities Safety Board hearing chaired by my fellow panel 
member Chairman Winokur regarding the Waste Treatment and 
Immobilization Plant at Hanford. At the hearing, we discussed 
the status of the board's technical concern regarding vessel 
mixing as well as erosion and corrosion issues. We had an in-
depth discussion of safety culture at the WTP project. I 
believe we are making steady progress in both addressing the 
DNFSB's [Defense Nuclear Facilities Safety Board] technical 
concerns and promoting the safety culture at WTP.
    We will continue to identify opportunities to reduce the 
lifecycle cost of our program, including the development of new 
technologies and other strategic investments. We continue 
working with the Government Accountability Office to 
institutionalize improvements in contracting and project 
management. We have established project-sponsored positions at 
headquarters for all capital asset projects, and conduct 
regular peer reviews of our most complex projects. We are 
including U.S. Army Corps of Engineers personnel who have 
demonstrated experience in project and contract management on 
these project peer review teams. We are committed to becoming a 
best in class performer in this area.
    Chairman Turner and other members of the subcommittee, we 
will continue to apply innovative cleanup strategies so that we 
can complete quality work safely, on schedule, and within cost, 
thereby demonstrating value to the American taxpayers.
    Thank you.
    [The prepared statement of Mr. Huizenga can be found in the 
Appendix on page 139.]
    Mr. Turner. Mr. Winokur.

 STATEMENT OF HON. PETER S. WINOKUR, CHAIRMAN, DEFENSE NUCLEAR 
                    FACILITIES SAFETY BOARD

    Dr. Winokur. Thank you, Chairman Turner and members of the 
subcommittee. I am Peter Winokur, the Chairman of the Defense 
Nuclear Facilities Safety Board, known as the DNFSB.
    I submitted a written statement for the record that 
describes the board's mission and highlights a number of safety 
issues that are particularly important to ensuring that the 
defense nuclear complex can safely accomplish its missions. I 
will provide a brief summary of my written testimony for your 
consideration today.
    The DNFSB was established by Congress in 1988 to provide 
safety oversight for the defense nuclear facilities operated by 
DOE and NNSA. We are the only agency that provides independent 
safety oversight of DOE's defense nuclear facilities.
    As the defense nuclear complex evolves, we cannot ignore 
the growing challenges that will define the future of DOE's 
nuclear facilities, the need for Federal stewardship of this 
enterprise, and the Federal commitment to protect the health 
and safety of the workers and the public. Today's challenges of 
aged infrastructure, design and construction of new replacement 
facilities, and the undertaking of a wide variety of new 
activities in defense nuclear facilities requires continued 
vigilance and safety oversight to ensure public and worker 
protection.
    The board's budget is essentially devoted to maintaining 
and supporting an expert staff of engineers and scientists, 
nearly all of whom have technical masters degrees or doctorates 
to accomplish our highly specialized work.
    The President's budget request for fiscal year 2013 
includes $29.415 million in new budget authority for the board. 
It will support 120 personnel, the target we have been growing 
toward for the last several years. We believe this level of 
staffing is needed to provided sufficient independent safety 
oversight of DOE's defense nuclear complex given the pace and 
scope of DOE activities.
    The board evaluates DOE's activities in the context of 
integrated safety management. Integrated safety management is a 
process-based approach that builds tailored safety controls 
into operating procedures and facility designs as they are 
developed. Integrated safety management is efficient and 
effective for everything from replacing a valve to designing a 
multibillion dollar facility. DOE has embraced this process in 
its policies and directives as a fundamental means of achieving 
adequate protection of workers and the public.
    Shortcomings in safety and efficiency in DOE's defense 
nuclear facilities can almost always be related to a failure to 
effectively apply integrated safety management. For complex, 
high-hazard nuclear operations, a performance-based outcome 
approach may appear successful on the surface but underlying 
weaknesses and processes can lead to serious accidents and 
unwanted results. It is critical that DOE avoid the low-
probability, high-consequence event that can cripple a facility 
or program and endanger workers and the public.
    DOE and NNSA are designing and building new defense nuclear 
facilities with a total project cost on the order of $20 
billion. I cannot overstate the importance of integrating 
safety into the design for these facilities at an early stage. 
Failing to do this will lead to surprises and costly changes 
later in the process.
    The board is committed to the early resolution of safety 
issues with DOE. To that end, we publicly document significant 
unresolved technical differences between the board and DOE 
concerning design and construction projects in quarterly 
reports to Congress.
    Even though the concept of safety and design is embodied in 
DOE's directives and is constantly emphasized by the board, 
safety issues have arisen due to DOE and its contractors 
changing safety aspects of a design of major new facilities 
without sufficient basis.
    One of the most prominent examples involved the Waste 
Treatment and Immobilization Plant under construction at 
Hanford and the uranium processing facility plant at the Y-12 
national security complex. Making such changes without 
adequately understanding the associated technical difficulties, 
complexities or project risk involved can reduce the safety 
margin of the design, create new safety issues, and imperil the 
success of the project.
    The board is continuing to urge NNSA to replace unsound 
facilities and invest in infrastructure for the future. The 
9212 Complex at Y-12 and the Chemistry and Metallurgy Research 
Building at Los Alamos are both well overdue for replacement.
    Since 2004, the board has issued an annual report to 
Congress on aging and degrading facilities. We will continue to 
update this report periodically to highlight the greatest 
infrastructure needs affecting safety of DOE and NNSA defense 
nuclear facilities.
    In addition to rebuilding its production infrastructure, 
DOE is attempting to achieve more efficient operations by 
creating and testing new governance models that rely more on 
its line organizations for safety oversight, reduce its safety 
directives, and reduce contract requirements. The board has 
devoted considerable extensive resources toward reviewing DOE's 
changes in directives, governance, and oversight. Safety and 
efficiency need not be mutually exclusive objectives if 
carefully managed.
    Finally, the need to constantly assess and maintain a 
strong safety cultural throughout the DOE defense nuclear 
complex has emerged as an imperative for the Department of 
Energy. The hazards posed by a failed safety culture are real 
and have led to costly disasters in industry. Lessons learned 
from the Fukushima reactor accident in Japan and the Deepwater 
Horizon oil well blowout in the Gulf of Mexico give powerful 
testament to a strong safety culture.
    Mr. Turner. It looks like we will perhaps be having votes 
in the middle of the series of this. So I will have to ask your 
indulgence as we are going to at some point during the 
questioning have to take a break, so I appreciate that, and 
perhaps you can incorporate any additional . . .
    Dr. Winokur. I am finishing up right now.
    Let me add in closing that the bulk of issues that the 
board has safety concerns about are addressed at the staff 
level without any need for a letter or recommendation. I am 
confident that the board is working with DOE's liaison to the 
board to establish an increasingly effective working 
relationship between the board and DOE. I believe the board's 
relationship with Deputy Secretary Poneman has never been 
better.
    That ends my statement. I will be happy to answer any 
questions you may have.
    [The prepared statement of Dr. Winokur can be found in the 
Appendix on page 150.]
    Mr. Turner. I've just been informed that we have about 35 
minutes, so perhaps if we can make it through this and 
conclude.
    Throughout all of my questions and my opening statement and 
I think concerns that you have heard from members of the panel 
has been the issue of the abandonment by the Administration in 
this budgetary request of the commitment to the modernization 
plan that was put forward both in the New START implementation 
and the 1251 plan. We have statements from the President, DOD, 
this committee, the Senate and House, and the Senate in the 
adoption of New START that directly reference the CMRR 
facility. It was identified as necessary; not merely desirable, 
but necessary.
    Now, Administrator D'Agostino, you have the benefit of 
having appeared before this subcommittee seven times starting 
in 2006 when you were Deputy NNSA Administrator. Looking 
through the record of those appearances, almost every time we 
see that you stress to this subcommittee how important the 
Chemistry and Metallurgy Research Replacement, CMRR, Facility 
is and how the capabilities it will provide are critical to 
sustaining a stockpile. Again, not desirable, but critical.
    And even today, if you look at the statement that you just 
read to us, and in the written statement you provided, for us, 
the words ``critical,'' ``vital,'' ``necessary,'' appear 
repeatedly when you talk about the elements of the issues of 
the execution of the NNSA performance and our nuclear 
deterrence.
    So, for example, in February 2008, you said that the 
surveillance and other capabilities that would be provided by 
the CMRR would be ``essential to maintaining the existing 
stockpile.''
    Your 2008 testimony elaborated, saying, quote: ``A 
sufficient capacity to produce plutonium pits for nuclear 
warheads is an essential part of a responsive national security 
enterprise and is required for as long as we retain a nuclear 
deterrent. Currently, we have a very small production 
capability capacity at Los Alamos National Laboratory, about 10 
pits per year, and NNSA has evaluated a variety of future pit 
production alternatives. Whether we continue on our existing 
path or if we move towards an RRW [Reliable Replacement 
Warhead]-based stockpile, we will need a capacity to produce 
about 50 to 80 pits per year. To do this''--still your words--
``we would use existing facilities with the addition of a new 
CMRR nuclear facility. Our approach would provide sufficient 
production capability to support smaller stockpile sizes, 
particularly when coupled with potential reuse of pits.''
    By these statements, it looks like NNSA evaluated pit reuse 
previously, but rejected an over-reliance on reuse because it 
would not meet the requirements for responsive infrastructure. 
Of course some would say that was 2008 when you worked for a 
different President. But here is what you told this 
subcommittee just last April when you did work for President 
Obama, referring to CMRR and the Uranium Processing Facility, 
UPF, you stated: ``These capital projects are key elements for 
ensuring safe, secure, reliable uranium and plutonium 
capabilities for nuclear security and other important 
missions.''
    In your comments just last April, you defined responsive 
as: ``We have identified that in our plan as having a uranium 
processing facility that is up and running, having a CMRR 
facility that is available to do the surveillance work on our 
stockpile and help support a modest amount of pit manufacturing 
capability. But one thing we have clear with the Defense 
Department and the National Nuclear Security Administration is 
our understanding that it is important to be able to 
demonstrate that our infrastructure is responsive.''
    Today, you tell us that the CMRR facility is no longer 
needed for at least 5 years. I am not certain as this committee 
tries to evaluate this how we determine if it is credible. And 
in fact, I would want to say it this way. If we take your 
testimony and if we put it in front of the committee and 
allowed it to vote, your testimony today would be outweighed by 
your previous testimony. So it begs a few questions. Who are we 
to believe, you from now or you 4 years ago? What are the 
actual requirements for pit production capacity? What do we 
really need to see in terms of responsiveness? Why was a 
reliance on pit reuse insufficient a few years ago but it is 
suddenly okay today?
    We have heard that you think NNSA has a plan, a revised 
plutonium strategy. You have provided the committee two pages 
of bullet points, and we do not believe that this is a plan. We 
believe it's a fig leaf to cover the Administration while it 
scrambles to figure out the repercussions of its hasty 
decision, and it was its decision, it was not based on the 
Budget Control Act, to terminate the CMRR facility.
    Now, we have a memorandum dated February 13, 2012, from 
Donald Cook and it is for Kevin Smith, Manager, Los Alamos Site 
Office. And this letter shows that you don't actually have a 
plan. In fact, it shows that you have given Los Alamos National 
Laboratory 60 days to scrape together a plan, meanwhile the 
original plutonium plan, the CMRR plan that was put together 
over the course of a decade has been thrown out, and I just 
want to reference this memo for a moment, the February 13th 
memo.
    On page 2, it says: ``The assignment is a high-level plan 
containing a sequence of actions and resources required each 
fiscal year over the fiscal year 2014 to 2018 as a result of 
delay in the CMRR.''
    The decision had already been made, and now the question is 
well, what do we do? There was not a: ``what do we do and then 
we can delay the plan.'' There was: ``let's delay the plan, now 
what do we do?''
    General Kehler, NNSA's customer in many senses, doesn't 
seem to think that you have a plan either. In testimony before 
the Senate Armed Services Committee just 3 weeks ago, General 
Kehler was asked about deferment of CMRR, and said: ``The plan 
to upgrade what we call CMRR, or the Chemical and Metallurgy 
Building, that allows us to process plutonium is not in place. 
This has been slipped fairly far to the right, 5 to 7 years 
depending on which of the documents you look at. I am concerned 
about that, and I am concerned about our ability to provide for 
the deployed stockpile. I will be concerned until someone 
presents a plan.''
    You heard him. He said it before also. There is no plan 
that we can look at and be comfortable with and understand that 
it's being supported.
    ``So I am not saying that there isn't a way forward. I am 
hopeful that there is.'' This is General Kehler. Hopeful. We 
have a General that has to be hopeful. ``We just don't have it 
yet; and until we do, as a customer I am concerned.''
    Based on your testimony to other committees, Administrator 
D'Agostino, I understand that the CMRR decision was primarily 
budget driven; is that right?
    Secretary D'Agostino. The budget situation that the country 
finds itself in very clearly is an element, but there are other 
factors. And, with your indulgence, Mr. Chairman, I would like 
to explain.
    Mr. Turner. Please.
    Secretary D'Agostino. Okay. An important point, number one, 
I want to be very clear on, the country needs a chemistry and 
metallurgy replacement facility on a nuclear site. It needs the 
capabilities that that facility provides. It has to have those 
capabilities. And, the capabilities are very simply material 
characterization in analytical chemistry work to work on 
plutonium, in order to do surveillance, as you have mentioned, 
sir. Those capabilities the country must have, those 
capabilities the country does have, and those capabilities 
exist and can exist in existing facilities that the NNSA and 
the country has at its disposal.
    The fact is, of course, the budget situation, the financial 
situation the country unfortunately finds itself in, the Budget 
Control Act, I understood the discussion earlier, but it is a 
reality.
    The other piece of reality I have to deal with is the 
appropriation I received from Congress last December, just one 
month before the roll-out of the President's budget for fiscal 
year 2013, which reduced our budget by over $400 million, 
including $100 million reduction on the CMRR facility. Pulling 
all of these pieces together provide kind of that fiscal 
incapability background that we had to deal with, but a couple 
of things that have changed in the past year that will 
illuminate the technical situation on with respect to this 
facility and why I believe firmly that we are on solid ground 
with the needs that we have on plutonium capability and 
materials characterization.
    The first is that we have an existing facility, a brand new 
facility called a Radiation Laboratory Utility Office Building. 
This is a facility at Los Alamos right next to PF-4, our 
plutonium facility, and this facility we have looked at the 
safety basis documentation, and by using modern dose conversion 
factors, we were able to increase by a factor of 4 the amount 
of material we can use in that particular building. That opens 
the world right up for us in order to be able to do a 
significant amount of surveillance work that we need to do in 
that facility. This did not exist over a year ago. It exists 
right now, and that provides the Nation and it provides us with 
a lot of flexibility.
    The second particular piece that has changed in the last 12 
months is a significant--one of the areas that the CMR----
    Mr. Turner. I am sorry, I have to interject here for a 
second.
    Secretary D'Agostino. Sure.
    Mr. Turner. This building fell out of the sky? I mean, it 
wasn't a plan, it wasn't something you knew was going to be 
there, and your testimony over the past 7 years, and 
considering the record of construction I am certain that there 
was a significant amount of lead time. Can you please describe 
to us how the existence of this building somehow changes your 
previous testimony where clearly that building must have been 
in the process and its capabilities must have been in the 
process, so when you say a year ago, I am----
    Secretary D'Agostino. A year ago--the Radiation Laboratory 
Utility Office Building is a brand-new facility that we are 
placing into operation right now, Mr. Chairman, and the key 
here----
    Mr. Turner. There was no period of planning, designing, it 
just showed up?
    Secretary D'Agostino. Absolutely not. Of course, we planned 
and designed this facility, and over many years we ended up 
putting this facility in place.
    Mr. Turner. Were you unaware of the capabilities when you 
were----
    Secretary D'Agostino. No, we are very well aware of the 
capabilities.
    Mr. Turner. Then how is it that it didn't affect your 
testimony before but it does now when its existence clearly was 
something that was anticipated?
    Secretary D'Agostino. Mr. Chairman, I may not have been 
very clear when I was talking earlier. We have used modern dose 
conversion factors. We have looked at the safety basis 
documentation and revised that safety basis documentation 
within the past year. This was a significant amount of work. We 
went through a process, and as a result of that we were able to 
increase the amount of plutonium we can use in these facilities 
significantly, from four grams of plutonium up to like 34 grams 
of plutonium. So it is actually a part and parcel of the 
project.
    Mr. Turner. Wait a minute. You know, these things are 
difficult for us to understand----
    Secretary D'Agostino. Sure.
    Mr. Turner [continuing]. Because, you know, obviously we 
are not the experts like you guys are, and, you know, when we 
get your testimony year after year and time after time, and we 
go to rely on it and then we suddenly get testimony that is 
completely different, I mean, it is not as if we have a 
different D'Agostino standing in front of us.
    Secretary D'Agostino. Same person, sir.
    Mr. Turner. Same guy. It would--I mean, we just have to 
apply logic, right? So if you have this--I mean, you are 
recommending that the CMRR be delayed 5 years, not that it be 
eliminated.
    Secretary D'Agostino. That is right, the country does need 
a long-term sustainable capability in this area. What we have 
right now is an opportunity by using existing facility to do 
the work that we, that the CMRR nuclear facility represents, 
and the radiation laboratory is actually a part of the CMRR 
project. What we have been able to do with additional analysis 
is say previously we were limited by between 4 and 8 grams of 
certain different isotopes of plutonium to work in that 
building. Because we have sharpened our pencil, we have used 
modern dose conversion factors, within the past year we have 
determined that that amount of plutonium can now be increased 
without any increased risk to the public or the workforce to up 
in the order of 30 grams. That is a very significant increase 
in the amount of work we can do in this radiation laboratory. 
We didn't want to take that count on this happening 2 years 
ago. We weren't sure that we would be able to do all of the 
analysis. But we finished that analysis within the past year. 
That provides the country with a lot of flexibility.
    I still believe, and I stand by the testimony, that the 
capabilities that these facilities provide are absolutely 
essential in order for us to do our job.
    Mr. Turner. So your answer is that it is not merely 
budgetary? Because that was my question.
    Secretary D'Agostino. The budgetary piece certainly sets 
the tone and the environment on this particular area because 
this is essentially, particularly given the concerns and 
looking at the seismic issues, working with the defense board, 
looking at the seismic issues, we were talking about a 
multibillion dollar facility here, as the committee is well 
aware, and as a result of that, given the pressures that we 
had, we decided instead of going simultaneously with two large 
multibillion dollar facilities on top of each other to move 
them apart in time, and in essence allow us to focus on the 
most important thing that the Nation needs because we know that 
this thing that we moved to the right by 5 years or so, the 
Nation----
    Mr. Turner. Or so. Well, what would the ``or so'' be?
    Secretary D'Agostino. Well, we have to finish essentially 
our analysis, we have to make sure that we get the uranium 
processing facility right and that we still maintain that 
capability to use the Superblock facility at Lawrence Livermore 
Laboratory and to stage material at device assembly facility as 
well as complete the work in the CMR radiation building. So we 
want to take full advantage of the investments the Nation has 
made over the last 10 years, particularly building the 
radiation building as well as take advantage of the new 
missions that we have moved to the device assembly facility in 
Nevada and the reduction in the amount of material at the 
Superblock.
    Mr. Turner. You have heard a number of people today, and I 
am certain you are aware of prior testimony.
    Secretary D'Agostino. Right.
    Mr. Turner. That have been pretty condemning of NNSA.
    Secretary D'Agostino. Right.
    Mr. Turner. ``Broken'' is a word that's been used 
frequently. We have had, you know, in private meetings the 
representatives from DOD have said that both they and Congress 
should be outraged over the lack of performance by NNSA. When 
you are trying to manage something, obviously one of the issues 
that you look at is what is your metric, right? What are you 
going to measure and what is the outcome in that measurement? 
In this instance with NNSA, people have a lot of unfinished 
projects where there is no ability to measure because there is 
no performance. There are areas where people are concerned not 
only that there is not a plan to address the fact that there 
hasn't been performance, but what that implementation will be 
when there is a plan that people haven't seen, and many times 
the plans themselves, as you know, are late, and I would like 
you to respond to that.
    Secretary D'Agostino. Sure. Certainly, I would be glad to.
    Mr. Turner. You have to have some concerns yourself, and if 
you echo their sentiments, I would like to know that also.
    Secretary D'Agostino. Absolutely. I have been looking 
forward to taking this question actually after listening to 
your comments earlier today. Management involves essentially 
people and processes focused on getting the mission done, and 
frankly, in that standpoint, leadership is about establishing 
that vision. But I take the measurements from the standpoint of 
what have we accomplished. Let's think about what has actually 
happened over the last number of years. The W76----
    Mr. Turner. Just pause for a second. I think we are all 
familiar with what happened. What our focus is on, which is why 
there is congressional oversight, are the things that aren't 
happening, why they aren't happening, and when they are going 
to happen. So perhaps you could give us some focus on--because 
that I would assume--I mean, your management focus would not be 
on a victory lap, it would be on your to-do list, and I am 
concerned about your to-do list, so let's focus on those things 
that aren't getting done.
    Secretary D'Agostino. I think it is important, though, 
since you started off the question, sir, with talking about 
lack of performance that the NNSA has actually performed very 
well over the last couple of years, and I would like to get on 
the record the work we have done on the W76, getting that job 
done, operationalizing the national ignition facility project, 
putting the radiation laboratory building into operation, and 
in fact increasing the workload by that facility by a factor of 
four, moving nuclear material out of Lawrence Livermore 
Laboratory in order----
    Mr. Turner. I am sorry, you were doing that so quickly, we 
are having a discussion up here, did you just say W76 
completed?
    Secretary D'Agostino. No.
    Mr. Turner. Okay.
    Secretary D'Agostino. I said the production work and full 
production mode on the W76.
    Mr. Turner. Because it's delayed how long?
    Secretary D'Agostino. We have got a production rate that--
--
    Mr. Turner. How long is the W76 delayed?
    Secretary D'Agostino. The finishing of the work that we 
jointly agreed to with the Defense Department pushes us back to 
2019 in order to meet the Navy's operational memo.
    Mr. Turner. A 3-year period is my understanding?
    Secretary D'Agostino. Two years. But we are well under way 
on production on a very complicated system that the Nation 
relies upon. I want to talk about the future, since I think 
this is the piece that you were interested on what is happening 
out in the future from a governance standpoint.
    We are focused, and we work with the laboratories, 
laboratory directors, in fact we met with them earlier this 
morning on looking at a revised governance approach consistent 
with the idea that we have hired solid companies to put things, 
bring their best to bear, using international and national 
consensus standards, taking advantage of those particular 
standards, and looking at what directives we can adjust in 
order to simplify and streamline. This is about continuous 
improvement. This is not about a magic pill that one can take.
    So we've done this before. We have experience in this area. 
At the Kansas City plant, we've implemented consensus standards 
there, we've seen an increase in performance, we've seen safety 
numbers improve fairly significantly, and we expect as a result 
of all of this when our new facility is built to save over $100 
million a year in doing this. We've worked with our laboratory 
directors in, specifically we've identified 28 directives that 
they considered burdensome directives, 25 of those directives 
have been resolved. We'll be glad to provide the subcommittee 
with the details of that if you're interested.
    In the security area specifically we've stepped out, we've 
taken a look at the DOE orders in the security areas, and for 
the NNSA we've streamlined them into two particular policies in 
orders and directives, just two from the whole list in order to 
streamline those, in order to clarify what some might consider 
too much directives, too many potentially conflicting items. As 
a result of our stepping out in that particular area, we have 
decreased, we have managed to increase our security performance 
and decrease the security costs by over 10 percent in that 2-
year period, bringing technology to bear. So, on governance, I 
think this is a particularly important point.
    Mr. Turner. Before you go into the next, you were just 
talking about the rules.
    Secretary D'Agostino. Right.
    Mr. Turner. We do have a slide show, it is a 9-minute slide 
show that we are going to run during the discussion that have, 
our understanding is that there are 270 DOD rules, orders, and 
directives that apply to NNSA; DOE, I am sorry, 270 DOE rules 
and orders and directives that apply to NNSA, and they put 
together a slide show of those. Because you have mentioned them 
as being a constraint for you, and I would agree.
    You can finish.
    Secretary D'Agostino. Okay. So, what we have stepped out 
over the past years, and we are implementing out into the 
future is a review board, an order review board where we 
evaluate each one of the directives and orders that we have 
that apply to NNSA contractors, we examine them in detail with 
our contractors in order to find out what elements of those 
orders might be into the ``what'' category versus ``how.'' We 
want to try to separate out the responsibilities to give the 
flexibilities to our M&O contractors, who are very capable, to 
let them figure out the best way to achieve the impact or the 
net results, and as a result of that 12, we have changed the 
contracts on 12 of these particular orders to simplify and 
streamline them, and we have a number of other particular 
orders, another slice of orders, if you will, that we've 
already looked at. But we have to do a lot more than that, 
frankly, in my opinion.
    We've made a few changes in our organizational structure. 
We've created an acquisition project management organization in 
order to address the question of projects being late, to make 
sure that the contracts folks and the project people are 
working together to put together the best model in place. Bob 
Raines is the head of that organization. He has significant 
experience in this particular area in order to make that 
happen.
    The other thing we have done from an organizational 
standpoint, and we're not reaping the benefits of all these yet 
because this is the things that we have done just within the 
past year, but we are moving out on them, is we have hired 
Michael Lemke from the Naval reactors organization. He has had 
experience in combining site office organizations and driving 
efficiencies in Naval reactors. We are going to take that 
expertise in that area, and we plugged him in, last week was 
his first week on the job, and he was with us this morning with 
the laboratory directors, and we're looking at how do we drive 
those same types of efficiencies into the weapons side of the 
program, particularly addressing the nuclear security and 
national security work that we have to do. There is a 
tremendous amount of opportunity.
    Mr. Turner. Obviously we have been very lenient with your 
time period, so we are going to go to our next question.
    Secretary D'Agostino. Okay.
    Mr. Turner. If you would like to submit for the record the 
extention of what you have accomplished, that would be great.
    [The information referred to can be found in the Appendix 
on page 239.]
    Secretary D'Agostino. I would like to. I could talk 
probably for hours on this.
    Mr. Turner. Going to the additional issues of the to-do 
list and the things at NNSA that need corrected, it is our 
understanding that the fiscal year 2013 funding request for the 
W76 life extension program has contained an error. Is this 
true? And if so, is the Administration going to ask Congress to 
fix this item and is there an understanding yet what the fix 
item would be to correct the error?
    Secretary D'Agostino. Within the DO--directed stockpile 
work account we have the resources to make sure that we have 
the right number in the W76 life extension production rate, and 
we will work with the committee on that.
    Mr. Turner. Is the number wrong?
    Secretary D'Agostino. The number reflects an earlier 
assessment on production rate which we don't have anymore. So 
we have to increase the number.
    Mr. Turner. So it's wrong?
    Secretary D'Agostino. Within the directed stockpile work 
account we have the right amount of money in order to fix this 
problem.
    Mr. Turner. But you are fixing something, a number that is 
in error? If you don't say yes, that is fine, I will say yes 
for you. I mean, it obviously, if that--if you are going to 
have to be fixing it, I would assume that it is an error.
    Now, on this issue of NNSA and what needs to be fixed--and 
by the way, the 9-minute slide is only of the titles of the 
rules and regulations that you are under that you were 
mentioning. It takes 9 minutes just to go through the titles.
    On February 16th we held a hearing with the National 
Academies of Science and the former lab directors, and we 
received a number of recommendations. Their statements were 
very strong that NNSA needed to be reformed. Some of those 
included eliminating transactional oversight and instead 
judging performance outcomes based on high level metrics, 
reducing duplication in health, safety, and security functions 
between NNSA and the Department of Energy. A few of them I 
assume show up there. Following national regulations you 
mentioned international standards or industry best practices 
for basic everyday functions instead of unique DOE guidance, 
streamlining DOE and NNSA orders, regulations, and directives 
to eliminate those that are redundant or do not add value, and 
also as an example in response to a question for the record 
from a hearing last November, you informed us of these 
hearings--these rules and regulations.
    What are NNSA and the Department of Energy doing to address 
these well documented and chronic problems? And, are there cost 
savings to be realized in any of these fixes, and there is a 
performance issue, but there is a monetary issue. Perhaps you 
could give us your insight there.
    Secretary D'Agostino. Sure, and also given the fact I could 
probably take 10 minutes to answer this question, I will talk 
and you can tell me when to stop, and we will just add the rest 
for the record, sir.
    [The information referred to can be found in the Appendix 
on page 241.]
    Mr. Turner. Sure.
    Secretary D'Agostino. Okay. We are taking fairly 
significant action in this particular area. Some of the actions 
I have described in my earlier response, so not to repeat 
myself, I won't repeat myself in this particular area. Beside 
the organizational changes, bringing others in that have 
experience in combining these, we have combined our site office 
organization from Pantex and Y-12 site office organization to 
drive what we think will be about $100 million a year worth of 
savings in this particular area. We are going to be shifting 
our oversight from what has been called a transactional level 
oversight. The performance evaluation plans are the particular 
pieces that have concerns by the laboratory directors, and 
what--in order to make that shift to strategic oversight, we 
have to have confidence in the management assurance systems 
that the laboratories and plants have in place, and we have 
that particular set of confidence in the management assurance 
systems at Kansas City, at Sandia, and at Y-12, and so we are 
going to, specifically for those three sites, and we are going 
to be carrying this across all eight sites, we are going to be 
working on looking at once those management assurance systems 
are fully mature, shifting the performance evaluation plans to 
strategic level oversight. Our near-term goal, Mr. Chairman, is 
to get the first of these done, frankly, in the June timeframe, 
which is shifting to strategic level oversight. That in itself 
alone will, I believe, provide a significant shift in the way 
we look at governance in the NNSA, but we have to do more than 
that, of course, because we believe that getting this 
management assurance system, relying on the contractor wholly 
to put its items in place is not just enough, we have to 
actually take a look at the contract requirements themselves, 
one, and, two, take a look at, make sure that our workforce, 
who is doing the job we have asked them to do, have shifted 
themselves because it is not enough for me to say management 
improvements and driving change from my position. It has to 
happen both in the laboratory and at the site offices and in 
headquarters. So I would call that, you know, day-to-day 
supervisors understanding the direction we are going into, 
relying on our M&O contractors and their assurance systems and 
having confidence in that, and in monitoring them at the 
strategic level versus these transactional pieces like put the 
clipboard and the check boxes.
    So that's our goal, Mr. Chairman, is to get something in 
place frankly by the June timeframe at one of our laboratories, 
and that was a discussion I had earlier this morning.
    Mr. Turner. Mr. Franks is going to be taking the gavel for 
the hearing, and I want to recognize Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. Mr. D'Agostino, way 
back in your testimony you spoke about the December 
appropriations. Could you go back and review that, the cuts 
that were made in your budget in that appropriation.
    Secretary D'Agostino. Mr. Garamendi, I will. I'll 
probably--I would like to also take it for the record as well 
to make sure we get the full details right down to the last 
million dollar level, and we can describe the details. From a 
broad brush stroke, the--we received about a $400 million or so 
reduction in the weapons activities account. This is the 
account that takes care of the stockpile itself, and as a 
result of that the--we had to scale back on the finishing up of 
the design work on the CMRR nuclear facility itself. Let me see 
if I can find it.
    Mr. Garamendi. That is okay. I just wanted to get in place 
the nature of the problem. We've spent the better part of 2 
hours here going over the changes that have occurred in 
previous plans. It seems to me that those changes are a direct 
result of a significant reduction in the budget for NNSA and 
the rest of the nuclear weapons activities. With that in place, 
you've made an effort to try to explain to this committee the 
difference between ``must have'' and ``nice to have.'' I would 
hope that we are listening. It appears as though and I would 
like to--perhaps you can do this in additional testimony 
written without getting into too much detail here, which you 
have already done, how you have modified the plans based 
because of the reduction in budget to accomplish the necessity, 
the necessary goals, the necessary activities, and we as a 
committee need to recognize that this was, this whole scenario 
has been put in place by the effort to reduce Government 
expenditures in most every category to meet the Budget Control 
Act of last summer and now as it plays out, and it doesn't seem 
to me to do us any good whatsoever to sit here and start 
blaming everybody in the world for what is actually a process 
that has been initiated by the budget reductions that this 
Congress has put in place.
    Now is that correct, that in fact all of these scenarios 
that have been laid out here, all of the questions that have 
been brought to bear about the CMRR and Y-12 and changes in 
plans and delays in helicopters and the rest are a direct 
result of reduced funding? Is that correct?
    Secretary D'Agostino. Mr. Garamendi, that's absolutely 
correct. Because of the reduced funding situation, we--it 
forced us, frankly, to responsibly look at what were we trying 
to accomplish, what are we trying to get done, what is the most 
important thing to do, that what we are not about is building 
buildings. We are about providing capability to the country and 
making sure we have capability to the country. You've heard my 
explanation on the CMR nuclear facility to take this $1.8 
billion liability, push it back, and essentially separate out 
the camel's humps, if you will, so that we can get things on a 
more stable platform. We did the same thing with the plutonium 
disposition capability facility and the work at the K reactor 
down at the Savannah River site, also took billions of dollars 
of liability off the books as a result of using, looking at a 
different way to solve a particular problem to provide a 
capability, and funding stability, as you said, sir, is very 
important.
    Mr. Garamendi. Okay. Now I want to move to something else 
that you and I have had a conversation about. Part of your 
activities deal with the disposition of weapons material, 
specifically plutonium. Could you bring me up to date on the 
MOX facility in South Carolina?
    Secretary D'Agostino. Yes, sir. The MOX facility project is 
obviously under way. It is significantly beyond the 60--it is 
beyond the 60-percent design point. I have Miss Harrington here 
somewhere--there she is--who might come up to the table at some 
point if you permit to get into the details.
    What we have done with the MOX facility project, though, 
sir, is take, and this relates to the plutonium disposition 
capability activity that I mentioned, is look at ways to fully 
utilize that facility in order to take advantage of 
efficiencies that we found in the facility. Space in the 
facility that allows us to avoid having to build a plutonium 
disposition project either at the K reactor or at a brand new 
facility. We've conducted an internal review of the project. We 
do this every year, it is part of our new project management 
principles where we don't move forward until we have 90-percent 
design, but on our projects we do independent reviews on these 
projects. We found some challenges, frankly, on this particular 
project, and all of our nuclear projects because what we find 
is that the country, this country has limited capability to 
provide the amount and quantity of nuclear quality assurance 
materials and skill sets, people, and equipment necessary to 
make these projects successful, and in the South Carolina-
Georgia region there are a number of nuclear projects that are 
moving up, and so this MOX project is suffering a bit, frankly, 
as a result of having to essentially be the lead horse in 
bringing the nuclear capability of the country up to speed.
    Mr. Garamendi. Okay, excuse me, but let me interrupt you. I 
would like to have a detailed description of the current 
status, not only the cost but also the timing.
    [The information referred to can be found in the Appendix 
on page 242.]
    Secretary D'Agostino. Sure.
    Mr. Garamendi. And my next question goes to so what are you 
going to do with the material that has been processed in this 
MOX facility if and when it is ever completed?
    Secretary D'Agostino. When the MOX facility is completed in 
the 2016 timeframe, and long before that particular point we 
are working with the Tennessee Valley Authority in order to 
establish an agreement, and we have to go through certain 
environmental, appropriate environmental impact types of a 
process to get public input to use this material in TVA 
[Tennessee Valley Authority] reactors. That has not been 
completed yet. I don't want to prejudge the outcome of the work 
that has to happen by law in that particular area, but this is 
a path forward on this particular project.
    Mr. Garamendi. My understanding is you are going to have 
considerable trouble achieving that goal and that the material 
is not desired by the nuclear industry. I would like to hear 
that also.
    Secretary D'Agostino. Well, we would be glad to provide the 
details of our work with the TVA, and maybe we can come to your 
office and give you the details or for the committee itself.
    Mr. Garamendi. You know where to find us. Please do so.
    Secretary D'Agostino. Yes, sir.
    [The information referred to can be found in the Appendix 
on page 242.]
    Mr. Garamendi. Is the NNSA considering any other 
alternatives to the disposal of the pits, the several dozen 
tons that we have stored?
    Secretary D'Agostino. We are--the Nation has, the NNSA is 
proposing and the Administration is proposing to finish 
building the MOX facility and to dispose of it in a way that we 
have described in our program budget.
    Mr. Garamendi. Well, then, back to the question, so what do 
you do with the product that is produced at the facility? I 
would like to have a detailed answer on that.
    [The information referred to can be found in the Appendix 
on page 242.]
    Mr. Garamendi. And finally, what efforts is the 
Administration making with regard to international agreements 
or joint projects internationally with particularly Russia on 
the disposal of pits?
    Secretary D'Agostino. We have worked with Russia, of 
course, in the plutonium management and disposition area 
itself, met with the Russians, most recently Anne and I met 
with the Russians in Seoul, they are proceeding forward on--
what we are talking about is the agreement by which the 
verification that we see that they have disposed of the same 
amount of material as we have in this particular area, and so 
we have to finish the agreements with the State Department on 
moving forward in that area.
    Mr. Garamendi. My understanding is the Russians do not 
believe the MOX process is the way to go.
    Secretary D'Agostino. The Russians have chosen a different 
path. They are using a fast reactor technology in this 
particular area. This is something this country doesn't have. 
It would take too long. The Nation has been moving forward in 
this with a MOX fashion for a number of years, and I believe it 
is the right path.
    Mr. Garamendi. Prove it. I want to hear the proof that it 
is the right path, okay?
    Secretary D'Agostino. Sure.
    Mr. Garamendi. And I want to hear why you do not believe 
the Russian path is the correct path.
    Secretary D'Agostino. Okay. Take that for the record, sir? 
Or now?
    Mr. Garamendi. Not here, not now. That is a long 
discussion.
    Secretary D'Agostino. Yes, sir.
    Mr. Garamendi. And it won't be completed here, but I would 
like to have a detailed analysis from your organization, these 
two paths that are possible.
    [The information referred to can be found in the Appendix 
on page 241.]
    Mr. Garamendi. Finally--well, I think I will let it go at 
that, Mr. Chairman. I have had more than enough time, more than 
my allotted time. Not enough time.
    Mr. Franks. [Presiding.] Thank you, Mr. Garamendi, I 
appreciate that. We were prepared to extend additional time. 
Just we have got some votes coming up here, and I will try to 
be brief and we will make sure we get to the floor on time. I 
thank all of you, first of all, for being here. You know you 
are critically important to the future of two little 3-year-
olds that are my children, my little twins, and I appreciate 
you working, hope you do a really good job, and I know, Mr. 
D'Agostino, that it is a profound responsibility to make sure 
that the nuclear deterrent of this Nation is credible and 
capable, and so I hope that you will grant me any diplomatic 
immunity necessary in the questions here, recognizing that you 
have a tremendous responsibility.
    Evidently there seems to be a little bit of an incongruity 
between you and former Under Secretary of State Ellen Tauscher 
vis-a-vis the link between modernization and reduction of our 
current stockpile. Now, it is not a gotcha question, but it 
seems to be one of great substance in that it is not just an 
academic issue.
    At our November hearing your written statement indicated a 
linkage between modernizing the current stockpile in order to 
achieve the policy objective of decreasing the number of 
weapons in the stockpile. However, in the discussion period of 
our November hearing then Under Secretary Ellen Tauscher 
indicated that the co-joining of modernization and reductions 
has been, in her opinion, quote, almost a red herring. Now, 
that, maybe it is the Republican in me, I don't know, but that 
is a disturbing incongruity in my opinion. Can you help me 
understand how to assimilate those two things?
    Secretary D'Agostino. I'll talk to my comments because I 
think I know who I am and obviously I worked a long time and 
very closely with Ellen Tauscher, and I have great respect for 
her, so I don't have the full context of when she said that. 
You know, I believe that the plan, you know, it is very 
important to have a plan, which we do have, on modernization of 
our stockpile. I mean, that's a plan that has been in place. It 
has been modified, of course, a little bit, as we discussed 
earlier, but it has been modified for good reason because, 
frankly, my budget has been, was appropriated significantly 
less in this particular area than the President requested, and 
it would be irresponsible of me, frankly, to try to jump right 
back on to that 1251 curve. That would be like a billion dollar 
increase in one year. We can't responsibly spend that kind of 
money nor would I ask for it, frankly.
    So, I believe that when I speak of this that people talk 
about linkage. When I talk about it, it's the fact that I know 
the path that we have going forward on our life extensions on 
the 76 and the 61 and the 78 and the 88 work that we are doing 
on a day-to-day basis with the Defense Department, I see the 
commitment by all of the people in that particular front, and 
we make adjustments when we need to, and therefore the budget 
piece is an important link into moving forward on our 
modernization itself.
    With respect to the START Treaty itself, my sense would be 
whether we have the START Treaty or not, whether we have the 
START Treaty or not, we needed to do something in this 
particular country, in this country. We had to do something. 
And what we have is a plan that lined up with the debate on the 
New START Treaty itself. So I would have argued, and I had in 
previous administrations, on the need to address this problem, 
and it wasn't, frankly, until this administration where we 
started addressing this problem in the most real way that I 
have ever seen in working in this business, close to 20 years.
    Mr. Franks. Well, I won't put words in your mouth, but I am 
assuming that you don't think that the issue of modernization 
and the issue of reduction in our stockpile are unrelated, that 
they are not--that the notion of co-joining those is somehow a 
red herring, I am assuming that is certainly my own 
perspective.
    From the two pages of bullets you provided to the committee 
on CMRR alternative, we see that the NNSA would rely heavily on 
reusing plutonium pits that are currently in storage. We've had 
some relatively recent experience certainly that you understand 
and are aware of more than I with the plans that we had to 
reuse canned subassemblies, and for the B61 life extension 
that, as you again know better than I, didn't pan out very 
well, and we have also been told that the labs need to conduct 
a substantial study on reusing pits to see if this is really a 
viable option. So, tell us what happens if plutonium pits reuse 
doesn't pan out like the, with the canned subassemblies, and 
give us some perspective of the technical challenges that must 
be overcome to make these pits, this reuse a fully viable 
option, and how much the study would cost related to the study 
of reusing the pits.
    Secretary D'Agostino. Mr. Franks, the area that is, that we 
continue to work on and have to do more work on is studying the 
aging phenomena of plutonium metal. Uranium, as you were 
describing earlier, is completely different from an aging 
standpoint, different, you know; we have issues, concerns with 
corrosion on that side. Plutonium metal is very different and 
unique. We have done a tremendous amount of aging studies. It 
has been checked by the JASON's review, and we have a very 
significant body of independent technical peer review that says 
this material can last 85 to 100 years or so, and we continue 
to evaluate it because we have to, can't assume, can't rest on 
those laurels. So that work is going to continue. That will 
inform the question that you raised on reusing an existing pit, 
which the Nation has a lot of, or pits, taking advantage of the 
investments that we have made, frankly, over those many years, 
reusing that material. There is a certain amount of 
attractiveness to doing that, not because of the dollar value 
it saves but because of the amount of handling that you would 
have to do on plutonium itself. We are concerned about worker 
safety, making sure that the workers are not exposed to this 
material longer than necessary. But from my standpoint, we are 
working very closely with the Defense Department to examine 
multiple options, whether it's a--I don't want obviously to get 
classified here, but whether we proceed forward using W76 pits, 
W68 pits or any of the other wide number of pits that we have. 
And, the good news by all of this, frankly, is there are a 
number of options, a number of different paths that we can 
proceed. We are not hampered by saying the Nation has to have a 
capability right now to make 50 or 80 pits per year in order to 
take care of the stockpile. That is great news for the country 
because we are not forced into making rash decisions on 
significant investments in a very short period of time. So, we 
have time to evaluate this area, and just recently General 
Kehler has been working on studies that he needs to have, and 
he is going to bring to the Nuclear Weapons Council, we are 
going to be getting together a Nuclear Weapons Council in the 
next few months to agree on a path forward on how to move 
forward in the pit area, but we have to start first with the 
life extension approach, make sure it informs what kinds of 
pits we can use, then go check the pits at Pantex and continue 
to do the aging studies on the plutonium itself.
    Mr. Franks. Well, Mr. D'Agostino, again, when I started out 
here, was recognizing the challenge of your job, so I have 
really just one more question. The oft-repeated notion that 
national security is the number one job of the Federal 
Government is never one that one can overstate or really 
perhaps often enough, and you have mentioned a number of times 
budget constraints and the impact of the budget and certainly, 
you know, I understand that, but I will say to you that some of 
us have been quite concerned that some of the philosophical 
changes that occur from election to election are not small 
issues, and in this case, you know, this potential 
sequestration coming, there's some very serious questions 
before this Congress and before the country, and our policy and 
being able to protect the national security of this country 
goes not only to the obvious of protecting our families, but it 
also recognizes the need to have a productive environment or a 
secure environment for productivity, and I hope that we don't 
get these out of order here.
    So with that said, first of all, we're hoping that people 
like yourselves who have dedicated your life to the cause of 
human freedom will make your voice heard regardless of 
sometimes the political pressures that you inevitably deal with 
because a lot is at stake, and, you know, the budget shouldn't 
always--the budget doesn't tell us our national security 
challenges, we certainly have to allot it according to those 
challenges, but we should first identify the need and be very 
clear about the potential threats it faces and the necessary 
responses that we might have to have.
    So with that, I would like to ask you one last question. 
What do you consider the most significant constraint or 
challenge that you have in being able to maintain the 
credibility and the effective deterrent that is so vital and 
has served this country so well for so long?
    Secretary D'Agostino. Mr. Franks, I believe--thank you for 
your comments earlier. I believe the most significant challenge 
we have, we have collectively, is ensuring that the people in 
our organization, both Federal and our M&O [management and 
operating] laboratory folks, see that the country is committed 
and sustainable over a period of time to this particular work. 
I believe because people in our organization pay attention to 
these hearings, they listen, they read the budgets that get put 
out by the Administration as well as they read the 
appropriations and authorization bills as they come out. They 
say does the country care about this area. I think these 
discussions and debates are a very important part of that.
    I will say on behalf of the Administration that--this is 
not a political statement; this is my view--that the President 
in this request, we have a 7.2-percent increase in the defense 
programs portion of the weapons activities account from the 
appropriation from last December to the request of fiscal year 
2013. There are many that will say, well, the President is not 
committed to this area. I disagree wholeheartedly. I do have an 
opportunity to make my voice heard in both the Pentagon and the 
White House in this particular area, and I do, and I am 
listened to, and I think the sustained commitment over time to 
the people is what is the most important thing in my view. 
Without the people, all these great facilities and capabilities 
are nothing.
    Mr. Franks. Yes, sir. Well, I would just suggest to you 
that some of us can't help but have some compunction about some 
of the President's comments related to his veto pen being ready 
for any adjustments in the sequestration that could have a very 
profound effect on what you do, given your comments about the 
budget today, and so our concerns aren't altogether just a 
fantasy.
    With that, though, I want to thank everyone for coming, and 
I hope that we can continue to see the beacon of freedom burn. 
Thank you.
    [Whereupon, the hearing was adjourned at 6:07 p.m.]
?

      
=======================================================================




                            A P P E N D I X

                             April 17, 2012

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 17, 2012

=======================================================================

      
                    Statement of Hon. Michael Turner

            Chairman, House Subcommittee on Strategic Forces

                               Hearing on

           Fiscal Year 2013 Budget Request for Atomic Energy

             Defense Activities and Nuclear Forces Programs

                             April 17, 2012

    Good afternoon. The Strategic Forces subcommittee hearing 
on the President's FY13 budget request for DOD and DOE nuclear 
forces, U.S. nuclear weapons posture, and the FY13 budget 
request for environmental management will come to order.
    I want to thank our witnesses for being here today. For 
those who follow the sometimes arcane world of nuclear weapons 
budgeting and policy, the witnesses on our two panels are 
familiar faces. They are:

    Panel 1:

        <bullet> LThe Honorable Madelyn R. Creedon, Assistant 
        Secretary of Defense for Global Strategic Affairs, U.S. 
        Department of Defense
        <bullet> LGeneral C. Robert Kehler, Commander, U.S. 
        Strategic Command

    Panel 2:

        <bullet> LThe Honorable Thomas P. D'Agostino, 
        Administrator, National Nuclear Security Administration
        <bullet> LMr. David G. Huizenga, Senior Advisor for 
        Environmental Management, U.S. Department of Energy
        <bullet> LThe Honorable Peter S. Winokur, Chairman, 
        Defense Nuclear Facilities Safety Board

    On December 1, 2010, prior to the ratification of the New 
START treaty, the then-Directors of Lawrence Livermore, Los 
Alamos, and Sandia National Laboratories wrote to Senators 
Kerry and Lugar and stated:
        ``we believe that the proposed budgets [referring to 
        the November 2010 update to the section 1251 plan] 
        provide adequate support to sustain the safety, 
        security, reliability and effectiveness of America's 
        nuclear deterrent within the limit of 1550 deployed 
        strategic warheads established by the New START Treaty 
        with adequate confidence and acceptable risk.''
    That plan appears to have been abandoned in the President's 
FY13 budget request, calling into question whether there is 
still ``adequate support'' for the Nation's nuclear deterrent 
to permit the reductions called for by the New START treaty.
    There have been those inside and outside of Government who 
have challenged the linkage of the New START treaty and the 
modernization plan. There are those who make the argument that 
because President Obama has requested more funds than his 
predecessor, though not the funds that he's promised, he's done 
all he needed to do. Neither of these positions represents 
serious thinking that befits our national security.
    There can be no doubt that reductions proposed by the New 
START treaty are only in our national interest if we complete 
the modernization of our nuclear deterrent--warheads, delivery 
systems, and infrastructure.
    I want to remind those who have forgotten--this was the 
President's modernization plan. It was his nuclear posture 
review, issued in April 2010 before there was a New START 
treaty, and his 1251 plan. Here are some highlights:
        <bullet> From the President's 2010 NPR: ``Funding the 
        Chemistry and Metallurgy Research Replacement Project 
        at Los Alamos National Laboratory to replace the 
        existing 50-year old Chemistry and Metallurgy Research 
        facility in 2021.''
        <bullet> Also from the President's 2010 NPR: 
        ``Developing a new Uranium Processing Facility at the 
        Y-12 Plant in Oak Ridge, Tennessee, to come on line for 
        production operations in 2021.''
        <bullet> Also from the President's 2010 NPR: ``The 
        Administration will fully fund the ongoing LEP for the 
        W-76 submarine-based warhead for a fiscal year 2017 
        completion, and the full scope LEP study and follow-on 
        activities for the B-61 bomb to ensure first production 
        begins in FY 2017.''
        <bullet> The President's 1251 plan states that CMRR 
        and UPF will complete construction by 2021 and will 
        achieve full operational functionality by 2024.
    Further, the inextricable linkage of modernization and the 
New START reductions was the basis of Condition Nine of the New 
START treaty. This linkage was the legal basis on which the 
Senate ratified the treaty. Let me remind everyone what 
Condition Nine stated:
         L``the United States is committed to proceeding with a 
        robust stockpile stewardship program, and to 
        maintaining and modernizing the nuclear weapons 
        production capabilities and capacities, that will 
        ensure the safety, reliability, and performance of the 
        United States nuclear arsenal at the New START Treaty 
        levels . . . the United States is committed to 
        providing the resources needed to achieve these 
        objectives, at a minimum at the levels set forth in the 
        President's 10-year plan provided to the Congress 
        pursuant to section 1251.''
    Not only do I believe is it fair to inquire whether the 
President's commitment to modernization is lacking now that he 
has his treaty, but I base that belief on the budget 
submissions and the Condition Nine report that has not been 
submitted to the Congress, nor the companion section 1045 
report from last year's NDAA.
    Let me remind the subcommittee what Dr. James Miller, the 
President's nominee to be the Under Secretary of Defense for 
Policy, told us last November:
         ``The first is that we understand the requirement to 
        report [per Condition Nine] if we have less funding 
        than in the Section 1251 as requested in Section 1251 
        Report. Our interpretation of that has been 
        substantially less. In fiscal year 2011 actually 
        slightly less was appropriated than requested. Our 
        judgment was that a one percent or less change didn't 
        require us to submit the report. The difference we are 
        looking at now [in the FY12 appropriations bills] in 
        both the House and the Senate appropriations bill, I 
        think, would trigger that, and we would have to examine 
        that question . . . If there is substantially less 
        funding than requested, we will, of course, provide the 
        report to Congress.''
    Yet we have no report for either FY12 or the President's 
own budget request for FY13, which underfunds the 1251 plan.
    So what's changed? Is it solely the budget picture? I don't 
mean to dismiss the budget situation and the cuts the DOD has 
had to make, especially as it has made those cuts while 
transferring large sums of its own budget to fund the 
modernization activities at the NNSA.
    Again, the question here is whether U.S. nuclear force 
reductions make sense without modernization. The President's 
Nuclear Posture Review makes the case for this linkage when it 
stated:
         ``implementation of the Stockpile Stewardship Program 
        and the nuclear infrastructure investments recommended 
        in the NPR will allow the United States to shift away 
        from retaining large numbers of non-deployed warheads 
        as a hedge against technical or geopolitical surprise, 
        allowing major reductions in the nuclear stockpile.''
    In the absence of these investments, will the forthcoming 
NPR Implementation Study continue to hurtle towards what seems 
to be a prejudged outcome that the U.S. should further reduce 
its nuclear deterrent? I see no other way to understand the 
President's recent comment at Hankuk University in Seoul:
         ``[L]ast summer, I directed my national security team 
        to conduct a comprehensive study of our nuclear forces. 
        That study is still under way. But even as we have more 
        work to do, we can already say with confidence that we 
        have more nuclear weapons than we need.''
    So the study isn't done, but we already know the answer 
supports the President's goal of a world without nuclear 
weapons? Either the President already knows the answer to the 
question, in which case the Congress must be informed, or, the 
President wrote the question to ensure an answer he'd want.
    Hopefully our witnesses today will shed some light on this 
important area. Either way, I assure you, this year's National 
Defense Authorization Act will ensure Congress' oversight of 
these issues.
    I also want to highlight some of the discussion at this 
subcommittee's February hearing on governance and management of 
the nuclear security enterprise. At that hearing, we heard from 
the National Academies of Science about a ``broken'' and 
``dysfunctional'' relationship between NNSA and its 
laboratories. We also heard about a system of micromanagement 
that is costing taxpayers untold millions. The National 
Academies study and nearly a dozen others have identified and 
documented the problems and suggested possible solutions. I 
hope our witnesses, on both panels, will help us understand 
what actions should be taken and when.
    Finally, we welcome the opportunity to review the budget 
and priorities of DOE's Defense Environmental Cleanup efforts. 
DOE continues to do good work in nuclear cleanup, but also 
continues to struggle with technical and management issues at 
its largest project. I look forward to hearing about how DOE 
intends to address these concerns.

                   Statement of Hon. Loretta Sanchez

         Ranking Member, House Subcommittee on Strategic Forces

                               Hearing on

           Fiscal Year 2013 Budget Request for Atomic Energy

             Defense Activities and Nuclear Forces Programs

                             April 17, 2012

    I would like to join Chairman Turner in welcoming General 
Kehler, Ms. Creedon, Mr. D'Agostino, Mr. Huizenga, and Dr. 
Winokur.
    I am also grateful to Ms. Harrington, Dr. Hommert, Dr. 
Albright and Dr. McMillan, Gen. Chambers, Adm. Benedict and 
Adm. Donald for your statements for the record and for being 
with us to participate in our discussions today during the 
question and answer session.
    I would like to preface my comments by noting that the 
congressionally mandated bipartisan Budget Control Act has 
imposed a new fiscal reality that is putting enormous pressure 
on all Government programs, including the Pentagon and NNSA. 
The Section 1251 report was crafted pre-Budget Control Act.
    In this time of fiscal crisis, we must look at what 
investments must be made now, what cost-effective alternatives 
are available and what can be delayed with acceptable risk.
    So it is in this context that I would like to touch on a 
few specific issues related to sustaining our nuclear deterrent 
and our nuclear forces, to nuclear nonproliferation, and to 
nuclear cleanup efforts.
    First on nuclear weapons activities and operations.
    President Obama and Vice President Biden have made clear 
the importance of maintaining a safe, secure and reliable 
nuclear arsenal without nuclear testing, while making progress 
toward lower numbers. The Administration is currently 
conducting an implementation study of the Nuclear Posture 
Review that will inform requirements.
    It is important to note that with over 5,000 deployed and 
nondeployed nuclear weapons, the United States still maintains 
the ability to destroy major cities in the world several times 
over. A few hundred weapons would be so disruptive to society 
and the environment that it would end life as we know it.
    Even with progress on nuclear reductions, nuclear 
modernization plans for weapons and associated delivery 
vehicles remain necessary, though we must make smart and 
effective investments.
    For NNSA, while construction of the plutonium research 
facility at Los Alamos National Laboratory has been delayed, 
several big-ticket items require close oversight, including for 
example the construction of the Uranium Processing Facility at 
Oak Ridge, estimated to cost over $7 billion, and the B61 life-
extension for forward-deployed warheads in Europe so far 
estimated to cost over $5 billion.
    However, as we prepare the FY13 defense authorization bill, 
our committee has not received from the NNSA the out-year 
budget estimates or the 2012 Stockpile Stewardship and 
Management Plan to inform our deliberations.
    As we look at requirements for maintaining a powerful 
nuclear deterrent, improved oversight and planning will be 
crucial to ensure that we can avoid cost overruns and schedule 
delays, retain the critical skills, capability and investments 
in science and technology that we need. In doing so, we must 
ensure the highest standards for nuclear safety.
    We will rely on the Department of Defense and STRATCOM to 
continue to critically examine Cold War-derived requirements, 
assess their continued value and cost-effectiveness, and adapt 
to new likely threats.
    This brings me to my second point on nuclear 
nonproliferation and nuclear threat reduction.
    I commend the Administration for its successes at the 
Nuclear Security Summit, particularly the U.S.-Russian 
cooperation to secure potentially vulnerable material at the 
former Soviet nuclear test site in Kazakhstan. I would also 
like to note the total removal of highly-enriched uranium from 
Mexico and Ukraine, as well as the progress toward converting 
Russian research reactors to use low-enriched uranium rather 
than HEU.
    However, the funding requests for securing and removing HEU 
and second line of defense have decreased compared to FY12 
appropriated levels.
    In contrast, the budget continues to prioritize the 
construction of the MOX facility at almost $1 billion annually 
despite the absence of a clear path forward. As another 
example, the non-proliferation budget this year also includes a 
$150 million subsidy for fuel enrichment.
    Urgent efforts, including the President's goal of securing 
all vulnerable weapons-usable material in 4 years, must remain 
a pressing national security priority. In this context, I'd 
like to hear about interagency coordination, and how DOD is 
supporting nuclear nonproliferation efforts.
    Third, nuclear cleanup remains a critical issue in the 
aftermath of the Cold War. Sites like Hanford and Savannah 
River Site played a unique and irreplaceable role during the 
Cold War and now we continue to make diligent and expeditious 
progress toward cleanup. I would like to hear about how the 
Department is addressing the safety culture concerns at the 
Waste Treatment Plant at Hanford and the cost increases for 
this program.

[GRAPHIC] [TIFF OMITTED] T4471.062

[GRAPHIC] [TIFF OMITTED] T4471.063

[GRAPHIC] [TIFF OMITTED] T4471.064

[GRAPHIC] [TIFF OMITTED] T4471.065

[GRAPHIC] [TIFF OMITTED] T4471.066

[GRAPHIC] [TIFF OMITTED] T4471.067

[GRAPHIC] [TIFF OMITTED] T4471.068

[GRAPHIC] [TIFF OMITTED] T4471.069

[GRAPHIC] [TIFF OMITTED] T4471.070

[GRAPHIC] [TIFF OMITTED] T4471.071

[GRAPHIC] [TIFF OMITTED] T4471.072

[GRAPHIC] [TIFF OMITTED] T4471.073

[GRAPHIC] [TIFF OMITTED] T4471.074

[GRAPHIC] [TIFF OMITTED] T4471.075

[GRAPHIC] [TIFF OMITTED] T4471.076

[GRAPHIC] [TIFF OMITTED] T4471.077

[GRAPHIC] [TIFF OMITTED] T4471.078

[GRAPHIC] [TIFF OMITTED] T4471.079

[GRAPHIC] [TIFF OMITTED] T4471.080

[GRAPHIC] [TIFF OMITTED] T4471.081

[GRAPHIC] [TIFF OMITTED] T4471.082

[GRAPHIC] [TIFF OMITTED] T4471.083

[GRAPHIC] [TIFF OMITTED] T4471.084

[GRAPHIC] [TIFF OMITTED] T4471.085

[GRAPHIC] [TIFF OMITTED] T4471.086

[GRAPHIC] [TIFF OMITTED] T4471.087

[GRAPHIC] [TIFF OMITTED] T4471.088

[GRAPHIC] [TIFF OMITTED] T4471.089

[GRAPHIC] [TIFF OMITTED] T4471.090

[GRAPHIC] [TIFF OMITTED] T4471.091

[GRAPHIC] [TIFF OMITTED] T4471.092

[GRAPHIC] [TIFF OMITTED] T4471.093

[GRAPHIC] [TIFF OMITTED] T4471.094

[GRAPHIC] [TIFF OMITTED] T4471.095

[GRAPHIC] [TIFF OMITTED] T4471.096

[GRAPHIC] [TIFF OMITTED] T4471.097

[GRAPHIC] [TIFF OMITTED] T4471.098

[GRAPHIC] [TIFF OMITTED] T4471.099

[GRAPHIC] [TIFF OMITTED] T4471.100

[GRAPHIC] [TIFF OMITTED] T4471.101

[GRAPHIC] [TIFF OMITTED] T4471.102

[GRAPHIC] [TIFF OMITTED] T4471.103

[GRAPHIC] [TIFF OMITTED] T4471.104

[GRAPHIC] [TIFF OMITTED] T4471.105

[GRAPHIC] [TIFF OMITTED] T4471.106

[GRAPHIC] [TIFF OMITTED] T4471.107

[GRAPHIC] [TIFF OMITTED] T4471.108

[GRAPHIC] [TIFF OMITTED] T4471.109

[GRAPHIC] [TIFF OMITTED] T4471.110

[GRAPHIC] [TIFF OMITTED] T4471.111

[GRAPHIC] [TIFF OMITTED] T4471.112

[GRAPHIC] [TIFF OMITTED] T4471.113

[GRAPHIC] [TIFF OMITTED] T4471.114

[GRAPHIC] [TIFF OMITTED] T4471.115

[GRAPHIC] [TIFF OMITTED] T4471.116

[GRAPHIC] [TIFF OMITTED] T4471.117

[GRAPHIC] [TIFF OMITTED] T4471.118

[GRAPHIC] [TIFF OMITTED] T4471.119

[GRAPHIC] [TIFF OMITTED] T4471.120

[GRAPHIC] [TIFF OMITTED] T4471.121

[GRAPHIC] [TIFF OMITTED] T4471.122

[GRAPHIC] [TIFF OMITTED] T4471.123

[GRAPHIC] [TIFF OMITTED] T4471.124

[GRAPHIC] [TIFF OMITTED] T4471.125

[GRAPHIC] [TIFF OMITTED] T4471.126

[GRAPHIC] [TIFF OMITTED] T4471.127

[GRAPHIC] [TIFF OMITTED] T4471.128

[GRAPHIC] [TIFF OMITTED] T4471.129

[GRAPHIC] [TIFF OMITTED] T4471.130

[GRAPHIC] [TIFF OMITTED] T4471.131

[GRAPHIC] [TIFF OMITTED] T4471.132

[GRAPHIC] [TIFF OMITTED] T4471.133

[GRAPHIC] [TIFF OMITTED] T4471.134

[GRAPHIC] [TIFF OMITTED] T4471.135

[GRAPHIC] [TIFF OMITTED] T4471.136

[GRAPHIC] [TIFF OMITTED] T4471.137

[GRAPHIC] [TIFF OMITTED] T4471.138

[GRAPHIC] [TIFF OMITTED] T4471.139

[GRAPHIC] [TIFF OMITTED] T4471.140

[GRAPHIC] [TIFF OMITTED] T4471.141

[GRAPHIC] [TIFF OMITTED] T4471.142

[GRAPHIC] [TIFF OMITTED] T4471.143

[GRAPHIC] [TIFF OMITTED] T4471.144

[GRAPHIC] [TIFF OMITTED] T4471.145

[GRAPHIC] [TIFF OMITTED] T4471.146

[GRAPHIC] [TIFF OMITTED] T4471.147

[GRAPHIC] [TIFF OMITTED] T4471.148

[GRAPHIC] [TIFF OMITTED] T4471.149

[GRAPHIC] [TIFF OMITTED] T4471.150

[GRAPHIC] [TIFF OMITTED] T4471.151

[GRAPHIC] [TIFF OMITTED] T4471.152

[GRAPHIC] [TIFF OMITTED] T4471.153

[GRAPHIC] [TIFF OMITTED] T4471.154

[GRAPHIC] [TIFF OMITTED] T4471.155

[GRAPHIC] [TIFF OMITTED] T4471.156

[GRAPHIC] [TIFF OMITTED] T4471.157

[GRAPHIC] [TIFF OMITTED] T4471.158

[GRAPHIC] [TIFF OMITTED] T4471.159

[GRAPHIC] [TIFF OMITTED] T4471.160

[GRAPHIC] [TIFF OMITTED] T4471.161

[GRAPHIC] [TIFF OMITTED] T4471.162

[GRAPHIC] [TIFF OMITTED] T4471.163

[GRAPHIC] [TIFF OMITTED] T4471.164

[GRAPHIC] [TIFF OMITTED] T4471.165

[GRAPHIC] [TIFF OMITTED] T4471.166

[GRAPHIC] [TIFF OMITTED] T4471.167

[GRAPHIC] [TIFF OMITTED] T4471.168

?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 17, 2012

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4471.001
    
    [GRAPHIC] [TIFF OMITTED] T4471.002
    
    [GRAPHIC] [TIFF OMITTED] T4471.003
    
    [GRAPHIC] [TIFF OMITTED] T4471.004
    
    [GRAPHIC] [TIFF OMITTED] T4471.005
    
    [GRAPHIC] [TIFF OMITTED] T4471.006
    
    [GRAPHIC] [TIFF OMITTED] T4471.007
    
    [GRAPHIC] [TIFF OMITTED] T4471.008
    
    [GRAPHIC] [TIFF OMITTED] T4471.009
    
    [GRAPHIC] [TIFF OMITTED] T4471.010
    
    [GRAPHIC] [TIFF OMITTED] T4471.011
    
    [GRAPHIC] [TIFF OMITTED] T4471.012
    
    [GRAPHIC] [TIFF OMITTED] T4471.013
    
    [GRAPHIC] [TIFF OMITTED] T4471.014
    
    [GRAPHIC] [TIFF OMITTED] T4471.015
    
    [GRAPHIC] [TIFF OMITTED] T4471.016
    
    [GRAPHIC] [TIFF OMITTED] T4471.017
    
    [GRAPHIC] [TIFF OMITTED] T4471.018
    
    [GRAPHIC] [TIFF OMITTED] T4471.019
    
    [GRAPHIC] [TIFF OMITTED] T4471.020
    
    [GRAPHIC] [TIFF OMITTED] T4471.021
    
    [GRAPHIC] [TIFF OMITTED] T4471.022
    
    [GRAPHIC] [TIFF OMITTED] T4471.023
    
    [GRAPHIC] [TIFF OMITTED] T4471.024
    
    [GRAPHIC] [TIFF OMITTED] T4471.025
    
    [GRAPHIC] [TIFF OMITTED] T4471.026
    
    [GRAPHIC] [TIFF OMITTED] T4471.027
    
    [GRAPHIC] [TIFF OMITTED] T4471.028
    
    [GRAPHIC] [TIFF OMITTED] T4471.029
    
    [GRAPHIC] [TIFF OMITTED] T4471.030
    
    [GRAPHIC] [TIFF OMITTED] T4471.031
    
    [GRAPHIC] [TIFF OMITTED] T4471.032
    
    [GRAPHIC] [TIFF OMITTED] T4471.033
    
    [GRAPHIC] [TIFF OMITTED] T4471.034
    
    [GRAPHIC] [TIFF OMITTED] T4471.035
    
    [GRAPHIC] [TIFF OMITTED] T4471.036
    
    [GRAPHIC] [TIFF OMITTED] T4471.037
    
    [GRAPHIC] [TIFF OMITTED] T4471.038
    
    [GRAPHIC] [TIFF OMITTED] T4471.039
    
    [GRAPHIC] [TIFF OMITTED] T4471.040
    
    [GRAPHIC] [TIFF OMITTED] T4471.041
    
    [GRAPHIC] [TIFF OMITTED] T4471.042
    
    [GRAPHIC] [TIFF OMITTED] T4471.043
    
    [GRAPHIC] [TIFF OMITTED] T4471.044
    
    [GRAPHIC] [TIFF OMITTED] T4471.045
    
    [GRAPHIC] [TIFF OMITTED] T4471.046
    
    [GRAPHIC] [TIFF OMITTED] T4471.047
    
    [GRAPHIC] [TIFF OMITTED] T4471.048
    
    [GRAPHIC] [TIFF OMITTED] T4471.049
    
    [GRAPHIC] [TIFF OMITTED] T4471.050
    
    [GRAPHIC] [TIFF OMITTED] T4471.051
    
    [GRAPHIC] [TIFF OMITTED] T4471.052
    
    [GRAPHIC] [TIFF OMITTED] T4471.053
    
    [GRAPHIC] [TIFF OMITTED] T4471.054
    
    [GRAPHIC] [TIFF OMITTED] T4471.055
    
    [GRAPHIC] [TIFF OMITTED] T4471.056
    
    [GRAPHIC] [TIFF OMITTED] T4471.057
    
    [GRAPHIC] [TIFF OMITTED] T4471.058
    
    [GRAPHIC] [TIFF OMITTED] T4471.059
    
    [GRAPHIC] [TIFF OMITTED] T4471.060
    
    [GRAPHIC] [TIFF OMITTED] T4471.061
    
    [GRAPHIC] [TIFF OMITTED] T4471.169
    
    [GRAPHIC] [TIFF OMITTED] T4471.170
    
    [GRAPHIC] [TIFF OMITTED] T4471.171
    
    [GRAPHIC] [TIFF OMITTED] T4471.172
    
    [GRAPHIC] [TIFF OMITTED] T4471.173
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 17, 2012

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. TURNER

    Secretary D'Agostino. Thank you for your continued support of the 
Nation's nuclear deterrent and your interest in the National Nuclear 
Security Administration (NNSA). We share a common goal of ensuring our 
nuclear stockpile remains safe, secure, and reliable and we look 
forward to working with you to improve how we achieve that goal.
    As you know, the Statement of Administration Policy (SAP) on H.R. 
4310 registered strong objections to provisions of the bill as they 
relate to the Department of Energy (DOE) and the National Nuclear 
Security Administration (NNSA). While we agree on the need to 
continuously improve NNSA's performance, the Administration strongly 
opposes the sections dealing with governance, management, and oversight 
of the nuclear security enterprise because they would unduly restrict 
the authority of the Secretary of Energy, weaken safety standards and 
protections for workers and the general public; and fundamentally alter 
the nature of the relationship between the Department and its 
contractors; in particular the NNSA weapons labs.
    The NNSA, in partnership with the DOE, has been actively working to 
move beyond the Cold War nuclear weapons complex towards a 21st century 
Nuclear Security Enterprise by: reshaping the relationship between the 
laboratories, sites and headquarters; enacting a series of management 
reforms intended to both improve the way it does business and increase 
the efficiency of its operations; maintaining a safe, secure, and 
responsible security posture at its sites; and engaging in efforts to 
examine and reduce the number of budget reporting categories.
    The following examples offer a brief summary of the reform efforts 
being undertaken by the NNSA to achieve those ends. We believe these 
and related actions help address the problems that were identified in 
the reports that you refer to in your letter to the President. 
Therefore, we submit to you that additional legislative actions in H.R. 
4310 are unwarranted at this time and could have deleterious effects in 
DOE governance of its contractors and the safety and security of 
workers and the general public.

    NNSA-National Laboratory Relationship Improvements

    The February 2012 National Academy of Sciences and previous reports 
have expressed concerns with the relationship between the NNSA and the 
Laboratories, including the need to streamline operations. Over the 
past few years, the NNSA and DOE have been implementing the following 
actions to build trust and drive efficiencies and for this important 
relationship:
    <bullet>  To increase senior level communication, restore trust and 
foster collaboration on significant strategic improvements, the NNSA 
Administrator has initiated monthly executive forums that include the 
senior contractor leadership from the NNSA labs and plants, NNSA Field 
Offices and senior NNSA headquarters staff. This forum is currently 
collaboratively working three major initiatives focused on improving 
the efficiency and effectiveness of NNSA oversight.

        1.   National Nuclear Security Administration Equivalency 
        Matrix: A multisite NNSA effort to examine existing DOE 
        contractual requirements and other nonstatutory requirements 
        that can be adequately achieved through industrial standards 
        and commercial practices.
        2.   Benchmarking: NNSA has established a cross functional team 
        between NNSA and Laboratory representatives to review models in 
        place at other laboratories and Federally Funded Research and 
        Development Centers (FFRDCs) to document best practices and to 
        make informed recommendations to increase the efficiency of the 
        NNSA complex.
        3.   Strategic Performance Evaluation Plan Pilot Program: NNSA 
        is undertaking a pilot program to streamline its evaluation of 
        contractor performance by focusing on strategic outcomes 
        indicative of acceptable overall performance in lieu of its 
        historic tactical focus.

    <bullet>  Senior NNSA and DOE's Office of Health, Safety, and 
Security (HSS) personnel visited each of the seven nuclear sites and 
asked senior contractor and Federal personnel whether the Department's 
nuclear safety requirements were excessively burdensome. Site Federal 
and contractor personnel consistently agreed that while there have been 
implementation issues the nuclear safety requirements themselves are 
not excessive or inappropriate. The review identified areas for 
improvement in the nuclear safety directives, which were provided to 
the responsible offices and addressed in recent revisions.
    <bullet>  The Secretary's ``National Laboratory Director's 
Council,'' which includes the NNSA Labs, was tasked with identifying 
burdensome requirements for the DOE and NNSA. Of the 28 burdensome 
requirements identified to date by the Lab Directors, 25 have been 
resolved, two are on hold at the request of the Directors, and one is 
still being worked.
    <bullet>  NNSA's Enterprise Operational Requirements Review Board 
(EORRB) engages Lab and Plant Directors, Site Managers and Headquarters 
leadership to look at requirements and directives in order to ensure 
the level of prescription is appropriate and that the requirements are 
not excessively burdensome. This initiative has ensured that comments 
from NNSA personnel, including contractors, are adequately addressed. 
Since using this process, NNSA has been able to obtain a satisfactory 
resolution of 100% of its concerns during the revision of DOE 
directives, further ensuring that the desired balance in oversight is 
achieved.
    <bullet>  The NNSA Administrator's Policy (NAP-21) 
``Transformational Governance and Oversight,'' signed out last year, 
defined principles, responsibilities, processes and requirements to 
help in transforming and improving governance and oversight. NNSA also 
created a governance board to address governance issues. This document 
continues to be revised as additional opportunities for improvements in 
efficiency and effectiveness are identified. Using the NAP-21 guiding 
principles, the Office of Defense Nuclear Security continues to 
implement transformational governance activities, including major 
changes in how security policy is developed (using field-led teams), 
improving efficiency by allowing our site contractors to approve 
security plans and procedures themselves instead of requiring Federal 
officials to approve, and establishing a field-led working group to 
review performance and assurance actions and identify gaps, 
inefficiencies or inconsistencies with NAP-21, as well as potential 
inefficiencies.
    <bullet>  NNSA has continued its support for laboratory-directed 
research and development efforts, an essential scientific component of 
a laboratory's ability to recruit and retain top scientists and 
engineers, shape the future of nuclear security, and to seed innovation 
in critical national security areas.
    <bullet>  A four-party governance charter has been signed by the 
Departments of Energy, Defense, Homeland Security and the Office of the 
Director for National Intelligence to establish a means to examine 
strategic alignment of science and technology capabilities across 
agencies in order to prevent failure in critical national security 
areas. This helps facilitate the critical Work For Others (WFO) 
activities of the laboratories for interagency customers.

    Organizational & Business Improvements

    <bullet>  In March 2012, NNSA created and filled a new position of 
Associate Administrator for Infrastructure and Operations. This new 
organization is responsible for the integrated management of the NNSA 
Site Offices and coordination of all aspects of functional mission 
support across the NNSA enterprise. This will facilitate an NNSA 
enterprise approach to infrastructure management and operational 
support necessary for achievement of the OneNNSA concept.
    <bullet>  After more than 2 years of analysis and outside reviews, 
NNSA released a Request for Proposal (RFP) for the combined management 
of the Y-12 National Security Complex and Pantex Plant, with an option 
for phase in of Tritium Operations performed at the Savannah River 
Site. Combining contracts and site offices will allow NNSA to improve 
performance, reduce the cost of work, and operate as an integrated 
enterprise.
    <bullet>  In 2011, NNSA created an Acquisition and Project 
Management organization to improve business practices. This represents 
a fundamental change in NNSA's approach to project and construction 
management. This office focuses on improving the quality of work while 
keeping projects on time and on budget across the Enterprise. For 
example, for the Uranium Processing Facility Phase A scope of work 
(rerouting Bear Creek Road and site utilities), the APM analysis of 
acquisition alternatives identified an alternate acquisition strategy 
that was subsequently approved resulting in a $9M cost savings. Other 
similar acquisition analyses are planned for upcoming NNSA projects.
    <bullet>  NNSA has realigned functions, responsibilities, and 
authorities in the NNSA management structure to support implementation 
of governance reform initiatives. This realignment has provided for 
clear and direct lines of communication from the federal work-force to 
the contractor with a focus on mission execution.
    <bullet>  NNSA re-evaluated the assignment of authorities and 
responsibilities (and its delegations of authorities) to move decision 
making to the lowest appropriate and competent level in the 
organization. This has resulted in more timely and better informed 
actions and decisions which in turn led to increased productivity.
    <bullet>  NNSA is working to develop and implement governance 
reform metrics. The metrics will be used as inputs to demonstrate 
results and benefits of governance reform and enhance the use of data 
for Nuclear Security Enterprise (NSE) decisionmaking.
    <bullet>  NNSA awarded a Blanket Purchase Agreement for Enterprise 
Construction Management Services. The agreement will standardize NNSA's 
approach to project management across the enterprise and provide 
subject matter experts to provide independent analysis and advice 
related to the design and construction of facilities.
    <bullet>  NNSA has developed and implemented an integrated 
assessment process to minimize duplication of effort in conducting 
requirements driven assessment activities. Project requirement reviews 
are coordinated and led by a single office eliminating duplicative 
reviews for alternative analysis, cost estimating, acquisition 
planning, and safety.
    <bullet>  NNSA has affirmed the Contractor Assurance Systems and 
Site Office Line Oversight processes at three NNSA Sites. As a result 
numerous duplicative requirements, (e.g., reporting, approvals, 
systems, and regulations, directives, or policies), have been 
eliminated from the contract. The result is reduced transactional 
oversight which in turn frees both contractor and federal employees to 
focus on mission accomplishment. [See page 41.]
    Secretary D'Agostino. [The information was not available at the 
time of printing.] [See page 42.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BROOKS

    General Kehler. The Air Force is committed to safely operating the 
aging UH-1Ns and is exploring a cost-effective strategy to sustain and 
upgrade these aircraft until they can be replaced. While there is no 
established end-of-life, I am confident the Air Force can life-extend 
the UH-1N. The Air Force is also exploring a number of strategies to 
mitigate the capability gaps in the nuclear security mission. [See page 
22.]
                                 ______
                                 
           RESPONSES TO QUESTIONS SUBMITTED BY MR. GARAMENDI

    Secretary D'Agostino. Both the U.S. and Russia have each committed 
to dispose of 34 metric tons (MT) of weapons plutonium, enough for 
approximately 17,000 nuclear weapons. Under the Plutonium Management 
and Disposition Agreement (PMDA), both the U.S. and Russia agreed to 
dispose of the weapon-grade plutonium by fabricating it into mixed 
oxide (MOX) fuel for use in commercial reactors.
    Weapon-grade plutonium, unlike weapon-grade uranium, cannot be 
blended with other materials to make it unusable in weapons. However, 
it can be fabricated into MOX fuel and irradiated in civil nuclear 
power reactors to produce electricity. This irradiation results in 
spent fuel, a form that is not usable for weapons or other military 
purposes.
    This approach was endorsed in a 1995 National Academy of Sciences 
Report, ``Management and Disposition of Excess Weapons Plutonium,'' 
which identified the use of mixed oxide fuel as a means to dispose of 
surplus weapon-grade plutonium that posed ``a clear and present danger 
to national and international security.'' Additionally, Russia 
supported the MOX option because it would result in a change in the 
isotopic composition of the plutonium making it unusable for weapons, 
whereas other alternatives for disposition like immobilization would 
not.
    The Protocol amending the PMDA, signed on the margins of the 2010 
Nuclear Security Summit in Washington, D.C., provides that this weapon-
grade plutonium be disposed by irradiating it in light water reactors 
in the United States and in fast-neutron reactors operating under 
certain nonproliferation conditions in the Russian Federation. Under 
the Agreement Russia commits to (1) operate its fast reactors with a 
breeding ratio of less than one, resulting in a net decrease in the 
amount of weapon-grade plutonium and (2) not generate any new 
stockpiles of weapon-grade plutonium.
    While both countries will be fabricating surplus weapon-grade 
plutonium into MOX fuel, the difference in the reactors that will use 
the fuel is simply based on the current nuclear energy strategy in each 
country and availability of commercial reactors. In the U.S., light 
water reactors are predominant. In Russia, its energy strategy called 
for the use of fast-neutron reactors. [See page 46.]
    Secretary D'Agostino. Construction of the MOX facility began in 
August 2007 and significant progress has been made in the nearly five 
years since construction began, with design approximately 90% complete 
and the project is more than 60% complete. Eleven of the sixteen 
auxiliary buildings needed to support construction and operation of the 
MOX facility have been finished, including a new electrical substation 
which was completed in September 2010. More than 118,000 cubic yards of 
reinforced concrete and 19,000 tons of rebar have been installed by 
more than 2,000 workers. More than 400,000 feet of process piping and 
nearly six million feet of electrical cable are currently being 
installed, while installation of the process tanks is 90 percent 
complete.
    MOX fuel fabrication technology is well established and mature, and 
MOX fuel is used in more than 30 commercial reactors worldwide. The 
design of the U.S. MOX facility is based on proven French technology 
currently in use at the MELOX and LaHague facilities in France. The 
facility at the Savannah River Site is being designed and built to meet 
U.S. conventions, codes, standards, and regulatory requirements, and 
will be licensed by the U.S. Nuclear Regulatory Commission (NRC). The 
NRC authorized construction of the facility in 2005 and is currently 
reviewing the contractor's application for an operating license. 
Construction is currently scheduled to be completed in 2016, and has a 
total project cost of $4.8 billion.
    However, there continue to be significant cost and schedule 
challenges in key areas, including identifying suppliers and 
subcontractors with the ability and experience to fabricate and install 
equipment to the requirements of Nuclear Quality Assurance (NQA)1 
standards for nuclear work, which has resulted in a lack of competition 
for work and higher than expected bids. The project is also 
encountering significantly greater than expected turnover of 
experienced personnel due to the expansion of the U.S. commercial 
nuclear industry.
    The Department is in the process of formally evaluating the 
possible impacts that these cost challenges have on the schedule for 
construction and operations of the MOX facility, and is considering 
changing the performance baseline if necessary. [See page 44.]
    Secretary D'Agostino. The Tennessee Valley Authority (TVA) is 
currently exploring technical and regulatory requirements associated 
with irradiation of MOX fuel in five reactors pursuant to an 
interagency agreement that was signed in 2010.
    The current schedule with TVA is to execute a fuel supply agreement 
for MOX fuel in 2013, after NNSA completes a Supplemental Environmental 
Impact Statement, in which TVA is a cooperating agency.
    In addition, NNSA is consulting with various fuel fabricators 
regarding the option of having them market MOX fuel to their utility 
customers. NNSA also continues to develop strategies to attract other 
utility customers. [See page 45.]
    Secretary D'Agostino. The U.S. will sell the fuel that is 
fabricated at the MOX Fuel Fabrication Facility at the Savannah River 
Site to domestic nuclear utilities to be irradiated in NRC-licensed and 
regulated commercial power reactors. TVA is one such utility. Money 
resulting from the sale of the MOX fuel will be returned to the U.S. 
Treasury.
    MOX fuel behaves like traditional low enriched uranium fuel in the 
reactor's core, and the irradiation results in spent fuel, a form that 
is not usable for weapons or other military purposes. [See page 45.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 17, 2012

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. 1) What is the cost of the alternative plutonium 
strategy, including modifications to PF-4 and RLUOB, shipping material 
to DAF and Superblock, cleaning out the PF-4 vault, conducting the pit 
reuse study, etc.? How much will it cost to implement this alternative 
plan? To the extent possible, please break down the cost by individual 
actions/projects needed.
    Secretary D'Agostino. The preliminary Los Alamos cost estimate for 
execution of the interim plutonium strategy is in the range of $590M-
$820M over the next 8 years. This range is the result of a sixty day 
study to revise the strategy, and NNSA will work with the laboratory 
throughout the FY 2014 Budget formulation process to refine that 
strategy and the cost estimate. In the interim, we have provided your 
staffs with the detailed analysis from the sixty day study.
    The estimated $120M of already-appropriated funds remaining after 
the design work on the CMRR-NF is closed out is critical to beginning 
to implement the interim plutonium strategy at Los Alamos, which 
includes: additional equipment in RLUOB, relocation of equipment from 
the original CMR to PF-4, early start up of radiological laboratory 
activities in RLUOB, and design work for a secure material 
transportation system between RLUOB and PF-4.
    In addition, the FY 2013 President's Budget Request includes $35M 
to process, package and ship excess material out of PF-4. The PF-4 
vault cleanout work is planned for FY 2013-FY 2020, with an estimated 
cost of approximately $35-50M per year.
    Mr. Turner. 2) Do you still anticipate building CMRR-NF, with work 
commencing in 5 years? How much more expensive will CMFF-NF be then vs. 
if we built it now?
    Secretary D'Agostino. As part of ongoing program analysis and close 
coordination with DOD, the option to begin construction of the CMRR-NF 
remains available.
    The decision to defer construction of the CMRR-NF for at least 5 
years enables us to focus on other key modernization priorities while 
still ensuring uninterrupted plutonium operations.
    Detailed planning is under way to ensure the Nation possesses 
continued capability for required analytical chemistry, materials 
characterization, and nuclear material storage functions.
    While program delays often lead to greater costs in the long run, 
they can also yield savings by creating the conditions to consider 
options that may meet requirements at less cost.
    Mr. Turner. 3) Please provide a final estimate cost figure for the 
CMRR-NF facility, based upon where the design is at right now. We 
understand that LANL and NNSA have made strides to reduce the cost of 
CMRR-NF. How much would CMRR-NF cost if it were to continue today? What 
would have been the baseline cost presented to Congress in FY 2013?
    Secretary D'Agostino. The current Total Project Cost (TPC) range 
estimate for the CMRR-NF, as reported in the 1251 Report, is $3.7B-
$5.8B. The Los Alamos project team identified several opportunities in 
FY 2011 to reduce the project estimate by approximately $450M. As part 
of design close out efforts in FY 2012, the project team will update 
the cost range without the benefit of long-lead equipment vendor design 
information. This cost estimate is not expected to be a ``baseline 
quality'' estimate, but will reflect best available cost information at 
the conclusion of design activities.
    Mr. Turner. 4) How much will this alternate plan cost in relation 
to what CMRR was expected to cost?
    Secretary D'Agostino. The current Total Project Cost (TPC) range 
estimate for the CMRR-NF, as reported in the 1251 Report, was $3.7B-
$5.8B. The preliminary Los Alamos cost estimate for execution of the 
interim plutonium strategy is in the range of $590M-$820M over the next 
8 years. NNSA will work with the laboratory throughout the FY 2014 
Budget formulation process to refine that strategy and the 
corresponding cost estimate.
    Mr. Turner. 5) If we have a continuing resolution for the beginning 
of FY 2013, will NNSA recommend to the President that he seek an 
``anomaly'' for NNSA--or any individual NNSA programs?
    Secretary D'Agostino. It would be premature to state whether I 
would recommend to the President an anomaly is what's needed for NNSA 
programs in the event of a continuing resolution. Furthermore, any 
anomaly request would have to be approved by the Secretary before going 
to the White House and would be shaped by the overall funding context 
as we head into FY 2013.
    How would a continuing resolution, without an anomaly, affect the 
B61 life extension program?
    The current program of work for the B61 assumes full funding at the 
level requested in the President's Budget by October 1, 2012. Funding 
at a level less than the request, or an appropriation that comes well 
beyond the start of the fiscal year would unequivocally have 
implications for the program. That said, it's difficult to say what 
those implications would be without knowing the precise amount of the 
funding or the precise timing of the appropriation.
    Some aspects of the program that we would have to review closely 
would be the ramp-up to phase 6.3 activities including hiring 
additional technical staff at the national laboratories and production 
plants, flight tests, and environmental testing. Ultimately, the 
magnitude of the impact will depend on the length of the continuing 
resolution period.
    Mr. Turner. 6) Will NNSA ask Congress to address the W76 LEP 
funding issue? If so, what fix is needed?
    Secretary D'Agostino. NNSA is currently considering actions to 
realign FY 2013 funding to put the program on track to meet the Navy's 
operational requirements by the end of 2018 and complete the overall 
W76-1 production in FY 2021. This may include working with the Congress 
to realign funding before enactment, or reprogramming funds after the 
start of FY 2013.
    Mr. Turner. 7) NNSA is conducting a review of all of its Federal 
personnel, with an intent of possible streamlining. When will this 
review be complete?
    Secretary D'Agostino. The review will be completed by December 31, 
2012. Our current plans for reshaping the NNSA workforce are being 
developed in a manner to ensure, both now and in the foreseeable 
future, that we are in a position to: support mission execution, ensure 
high quality project management of several critical multi-billion 
dollar construction projects, and transform our Cold War nuclear 
weapons complex into a 21st Century Nuclear Security Enterprise. The 
review under way is a strategic effort to analyze baseline requirements 
for NNSA's workforce of the future that includes plans to maintain and 
enhance the pipeline of critical talent for the future, concurrent with 
changes to the existing workforce.
    Mr. Turner. 8) Please provide further details on the effort to 
eliminate transactional oversight at certain NNSA sites by June, as 
mentioned during the hearing.
    Secretary D'Agostino. NNSA is working with its laboratory partners 
to assess what is needed for a strategic oversight posture vice a 
transactional oversight approach. This assessment includes a review of 
actual functions performed by Federal staff and the costs and benefits 
of those functions as they relate to the work at the labs. The goal is 
to shift oversight for nonnuclear or lower hazard activities to focus 
on overall system performance and not individual transactions. This 
approach requires fewer resources, is less intrusive, and helps ensure 
we can hold plant and laboratory personnel responsible for performance. 
Experience with this approach at the Kansas City plant indicates that a 
Federal focus on performance outcomes and not individual transactions 
improves performance across the board (safety, quality, and 
production).
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ

    Ms. Sanchez. 9) What are the benefits, including cost-savings, and 
risks of planning to build CMRR when PF4 is replaced?
    Secretary D'Agostino. In five years, PF-4 will be approximately 40 
years old and NNSA believes there will be a continuing need to provide 
robust nuclear infrastructure to support a variety of national security 
missions for the foreseeable future. Over the next several years, NNSA 
will continue to evaluate the most effective way to modernize its 
infrastructure while maintaining its plutonium capabilities. CMRR-NF 
design will be substantially completed by the end of 2012, but 
construction is delayed. As part of ongoing program analysis and close 
coordination with DOD, the option to begin construction of the CMRR-NF 
remains available. It is too early to speculate on potential cost 
savings, or risks, associated with a facility that could provide any 
combination of CMRR-NF and PF-4 capabilities.
    Ms. Sanchez. 10) Can NNSA accomplish its mission safely without 
CMRR?
    Secretary D'Agostino. Yes. NNSA would not propose to delay CMRR 
unless we could safely accomplish our mission in the absence of new 
construction. The decision to defer, by at least 5 years, took into 
account safety concerns and the final decision was that the risk of 
delay was tolerable.
    PF-4 has undergone a series of upgrades to improve the facility's 
response to seismic events, with other upgrades currently being 
implemented through a capital TA-55 Reinvestment Project to further 
enhance reliability and safety of the facility.
    Ms. Sanchez. 11) Which planned LEPs are expected to require new pit 
production?
    Secretary D'Agostino. NNSA has existing Life Extension Programs for 
the W76 and the B61. The W76-1 and B61-12 do not require new pit 
production. The W78 and W88 are undergoing a conceptual study for life 
extension options. Options for both reuse of existing pits and 
remanufacture of existing pit designs are being evaluated. A decision 
for the W78 and W88 will be made during the Phase 6.2/6.2A Feasibility 
and Cost Study which will begin this fiscal year.
    Ms. Sanchez. 12) With this sea change in plans, what assurances can 
you give us regarding the accuracy and reliability of NNSA's 
requirement definition process?
    Secretary D'Agostino. Determining requirements is the process of 
establishing and validating need in collaboration with customers and 
stakeholders. For example, the requirement to maintain analytical 
chemistry, materials characterization and plutonium storage 
capabilities in support of national security mission work at Los Alamos 
has been affirmed by an independent DOD assessment. Over the past year, 
NNSA made difficult decisions to align with the fiscal reality of the 
Budget Control Act. The decision to defer construction of the CMRR-NF 
for at least 5 years is fully consistent with DOD's 2011 independent 
assessment that recognized the higher operational risk of Building 9212 
at Y-12 and the difficulty of executing both CMRR-NF construction and 
UPF construction under constrained funding scenarios. The decision to 
defer CMRR-NF construction does not increase risk to the safety and 
security of ongoing operations, and the operational constraints 
resulting from the decision do not prevent the NNSA from meeting 
mission requirements.
    Ms. Sanchez. 13) The 50-80 pit production capacity requirement was 
determined while the NNSA was planning on developing and producing the 
Reliable Replacement Warhead. What currently drives this requirement?
    Secretary D'Agostino. There are a number of factors the DOD and 
NNSA consider when establishing the pit production capacity 
requirement. These factors include lifetime of the pits; stockpile size 
(number of warheads); potential pit modification; ability to reuse 
existing pits; and what is needed to have a responsive production 
infrastructure.
    Ms. Sanchez. 14) Was a cost assessment done for all the 
alternatives to the 3 B option chosen by the Nuclear Weapons Council 
for the B61 life extension? Why/why not? If so, how does the cost-range 
for the 3B option compare to the funding range for the 3 other options 
considered?
    Secretary D'Agostino. Several life extension options were 
considered and assessed by the NWC prior to the decision to proceed 
with Option 3B. Of the 6 other options considered, only 4 fully met the 
military requirements including service life. These options all 
exceeded the preliminary Option 3B costs by approximately $1.5-$2B. 
Other options considered but not selected ranged from $1.5B-$4B for 
various component alteration scopes. These less expensive options had 
significant shortfalls in the ability to satisfy military requirements. 
In addition these options still require NNSA to begin a future life 
extension program in the 2020s. The NWC assessment concluded Option 3B 
was the most affordable life extension approach that met military 
requirements and assured no capability gap in our extended nuclear 
deterrent. Furthermore, NNSA and Office of the Secretary of Defense 
(OSD) Cost Analysis and Program Evaluation (CAPE) are jointly 
undertaking the B61 LEP Option 3B independent cost estimate, as well as 
the broader DOD-NNSA Strategic Weapons and Supporting Infrastructure 
analysis. This broader assessment seeks to ``develop decision framework 
that balances DOD's weapon needs and NNSA's infrastructure and 
stockpile stewardship requirements within fiscal constraints for 
incorporation into the FY 2014 President's Budget.'' The final report 
for this DOD-NNSA Interagency Team is expected in November 2012.
    Ms. Sanchez. 15) Is transactional oversight helpful or necessary to 
ensure safety, including nuclear safety? Why or why not? Are there 
other areas where transactional oversight should be applied for 
performance-based oversight? Why/why not?
    Secretary D'Agostino. A transactional approach to Federal oversight 
seeks to ensure contractor performance by observing operations and 
reviewing or even approving certain critical documents and activities, 
and is appropriate where the consequences of a failure are very high or 
where a performance failure is intolerable. Ensuring the safety of our 
nuclear operations is one area where transactional oversight may be 
helpful and necessary. For example, a large radiological release could 
significantly jeopardize the health and safety of the public or disrupt 
the ability of the Department to conduct its mission. Consequently, the 
Department approves the safety basis and startup of operations where 
such a release, while unlikely, could occur, and ensures adequate 
safety is demonstrated prior to operations.
    However, not all safety-related decisions require transactional 
oversight and it may even impede operations and add unnecessary costs 
for no benefit. For example, when a contractor has demonstrated 
adequate safety performance, the authority to review and approve 
restart of low hazard activities is often delegated to the operating 
contractor. As a general rule, most oversight is a blend of systems-
level and transaction-level oversight. To establish a proper balance of 
oversight methods, NNSA is working with its laboratory partners to 
assess what is needed for a strategic oversight posture vice a 
transactional oversight approach. This assessment includes a review of 
actual functions performed by Federal staff and the costs and benefits 
of those functions as they relate to the work at the labs.
    Ms. Sanchez. 16) Why did NNSA's fiscal year 2013 budget request not 
seek funding at the 1251 report level? Given the FY 2012 appropriations 
cuts, can NNSA execute work that had been planned under the 1251 report 
funding levels?
    Secretary D'Agostino. Last year, Congress passed the Budget Control 
Act (BCA) which limits discretionary spending for the next decade, and 
caps national security spending in Fiscal Year 2012 and 2013. In Fiscal 
Year 2012, Congress also reduced NNSA's request for Weapons Activities 
by $416 million below the President's request, or 5.4 percent. The BCA 
reflects a new fiscal climate in Washington, embraced by both Congress 
and the Administration. Like all agencies, NNSA must adjust to this new 
reality. The proposed budget allows us to meet DOD's requirements by 
making the necessary investments in nuclear capabilities and the 
nuclear complex.
    The National Nuclear Security Administration (NNSA) worked directly 
with the Department of Defense (DOD) and the Nuclear Weapons Council 
(NWC) to define a path forward to support the requirements in the 
Nuclear Posture Review Report. The realigned program, with adjustments 
to the original 1251 program and reflected in a memorandum on March 27, 
2012, can be executed within the resources provided by Congress for FY 
2012 and those requested for FY 2013.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. 17) Administrator D'Agostino, earlier this year, this 
subcommittee held a hearing that examined the recent National Academies 
of Science study pertaining to how NNSA governs, manages and oversees 
the nuclear security enterprise. This is in addition to numerous issues 
that have been documented through a long series of reports and studies 
over the past 10 years. What are the Department of Energy and the NNSA 
doing to address these issues and what is the budgetary impact of these 
issues?
    Secretary D'Agostino. The Department is committed to enhancing the 
efficiency of Government oversight while ensuring that critical nuclear 
security activities are conducted in a safe and secure environment. The 
Department takes very seriously the recommendations of the National 
Academy of Sciences regarding safety and security. Led by Secretary 
Chu, a former lab director, the Department is working actively to 
increase the efficiency of our oversight and to improve our approach to 
working with our partners. We believe that our ongoing efforts will be 
more effective at addressing those issues than prescriptive 
legislation.
    The Department, including the NNSA, is committed to maintaining and 
improving safety and security standards while improving efficiency. 
Below is a description of steps that the Department has recently taken 
and plans to take to achieve these goals.

    NNSA-National Laboratory Relationship Improvements

    The February 2012 National Academy of Sciences and previous reports 
have expressed concerns with the relationship between the NNSA and the 
Laboratories, including the need to streamline operations. Over the 
past few years, the Department, including the NNSA, has been 
implementing the following actions to build trust and drive 
efficiencies and for this important relationship:

    <bullet>  To increase senior level communication, restore trust and 
foster collaboration on significant strategic improvements, the NNSA 
Administrator has initiated monthly executive forums that include the 
senior contractor leadership from the NNSA labs and plants, NNSA Field 
Offices, and senior NNSA headquarters staff. This forum is currently 
collaboratively working three major initiatives focused on improving 
the efficiency and effectiveness of NNSA oversight.

        1.   National Nuclear Security Administration Equivalency 
        Matrix: A multisite NNSA effort to examine existing DOE 
        contractual requirements and other nonstatutory requirements 
        that can be adequately achieved through industrial standards 
        and commercial practices.
        2.   Benchmarking: NNSA has established a cross functional team 
        between NNSA and Laboratory representatives to review models in 
        place at other laboratories and Federally Funded Research and 
        Development Centers (FFRDCs) to document best practices and to 
        make informed recommendations to increase the efficiency of the 
        NNSA complex.
        3.   Strategic Performance Evaluation Plan Pilot Program: NNSA 
        is undertaking a pilot program to streamline its evaluation of 
        contractor performance by focusing on strategic outcomes 
        indicative of acceptable overall performance in lieu of its 
        historic tactical focus.

    <bullet>  Senior NNSA and DOE's Office of Health, Safety, and 
Security (HSS) personnel visited each of the seven nuclear sites and 
asked senior contractor and Federal personnel whether the Department's 
nuclear safety requirements were excessively burdensome. Site Federal 
and contractor personnel consistently agreed that while there have been 
implementation issues the nuclear safety requirements themselves are 
not excessive or inappropriate. The review identified areas for 
improvement in the nuclear safety directives, which were provided to 
the responsible offices and addressed in recent revisions. Revisions to 
governance processes to enhance collaboration will keep this feedback 
channel open in the future.
    <bullet>  In response to Secretarial direction, a systematic reform 
of the Department's safety and security directives has been undertaken 
and resulted in a redesigned, streamlined set of requirements that 
significantly reduces the level of prescription, offers flexibility for 
innovative solutions, and pushes decisionmaking authorities to 
appropriate levels within the organization. While maintaining 
requirements sufficient for effective safety and security performance, 
the Department revised, consolidated and cancelled directives to 
achieve a nearly 50% reduction in safety and security directives.
    <bullet>  The Secretary's ``National Laboratory Director's 
Council,'' which includes the NNSA Laboratories, was tasked with 
identifying burdensome requirements for the Department. Of the 20 
burdensome requirements identified to date by the Laboratory Directors, 
14 have been resolved, four are on hold at the request of the 
Directors, and two are still in process.
    <bullet>  NNSA's Enterprise Operating Requirements Review Board 
(EORRB) engages Laboratory and Plant Directors, Site Managers, and 
Headquarters leadership to look at requirements and directives in order 
to ensure the level of prescription is appropriate and that the 
requirements are not excessively burdensome. This initiative has 
ensured that comments from NNSA personnel, including contractors, are 
adequately addressed. Since using this process, NNSA has been able to 
obtain a satisfactory resolution of 100% of its concerns during the 
revision of DOE directives, further ensuring that the desired balance 
in oversight is achieved.
    <bullet>  The NNSA Administrator's Policy (NAP-21) 
``Transformational Governance and Oversight,'' approved last year, 
defined principles, responsibilities, processes and requirements to 
help in transforming and improving governance and oversight. This 
document is being revised to take advantage of lesson learned through 
the governance reform process.
    <bullet>  A four-party governance charter has been signed by the 
Departments of Energy, Defense, Homeland Security, and the Office of 
the Director of National Intelligence to establish the Mission 
Executive Council as a means to coordinate interagency long term 
strategic planning for unique science, technology and engineering 
(ST&E) capabilities across agencies in order to ensure that those 
capabilities will efficiently and effectively support critical national 
security priorities. This now provides the forum for the joint long-
term planning of people, skills and facilities needed to complement 
more traditional short-term and tactical Interagency Work activities at 
the laboratories.
    <bullet>  The Secretary recently approved transitioning DOE's 
orders and directives to a more risk-informed foundation (an Enterprise 
Risk Model). Future proposals for new requirements to be issued by DOE 
for contractor implementation must be evaluated on the basis of their 
benefit in terms of risk mitigation as well as their potential cost.
    <bullet>  Upon completion of the governance and oversight 
transformation effort, NNSA expects to have:

        <bullet>  Clearer roles, responsibilities, and accountability,
        <bullet>  Stronger Line Oversight and Contractor Assurance 
        Systems,
        <bullet>  Better balanced, performance and outcome oriented 
        requirements, and
        <bullet>  Improved contractual performance accountability.

    Organizational & Business Improvements

    <bullet>  In March 2012, NNSA created and filled a new position of 
Associate Administrator for Infrastructure and Operations. This new 
organization is responsible for the integrated management of the NNSA 
Site Offices and coordination of all aspects of functional mission 
support across the NNSA enterprise. This will facilitate an NNSA 
enterprise approach to infrastructure management and operational 
support necessary for achievement of the OneNNSA concept.
    <bullet>  After more than 2 years of analysis and outside reviews, 
NNSA released a Request for Proposal (RFP) for the combined management 
and operations of the Y-12 National Security Complex and Pantex Plant, 
with an option for phase in of Tritium Operations performed at the 
Savannah River Site and recently established the NNSA Production Office 
to combine NNSA oversight of both production plants. Combining 
contracts and site offices will allow NNSA to improve performance, 
reduce the cost of work, and operate as an integrated enterprise.
    <bullet>  In 2011, NNSA created an Acquisition and Project 
Management organization to improve business practices. This represents 
a fundamental change in NNSA's approach to project and construction 
management. This office focuses on improving the quality of work while 
keeping projects on time and on budget across the Enterprise. For 
example, for the Uranium Processing Facility Phase A scope of work 
(rerouting Bear Creek Road and site utilities), the APM analysis of 
acquisition alternatives identified an alternate acquisition strategy 
that was subsequently approved resulting in a cost savings of $9 
million. Other similar acquisition analyses are planned for upcoming 
NNSA projects.
    <bullet>  NNSA has realigned functions, responsibilities, and 
authorities in the NNSA management structure to support implementation 
of governance reform initiatives. This realignment has provided for 
clear and direct lines of communication from the Federal workforce to 
the contractor with a focus on mission execution.
    <bullet>  NNSA re-evaluated the assignment of authorities and 
responsibilities (and its delegations of authorities) to move 
decisionmaking to the lowest appropriate and competent level in the 
organization. This has resulted in more timely and better informed 
actions and decisions which in turn has led to increased productivity.
    <bullet>  NNSA is working to develop and implement governance 
reform metrics. The metrics will be used as inputs to demonstrate 
results and benefits of governance reform and enhance the use of data 
for Nuclear Security Enterprise (NSE) decisionmaking.
    <bullet>  NNSA awarded a Blanket Purchase Agreement for Enterprise 
Construction Management Services. The agreement will standardize NNSA's 
approach to project management across the enterprise and provide 
subject matter experts to provide independent analysis and advice 
related to the design and construction of facilities.

    Safety & Security Improvements

    The Department is aware of concerns previously raised regarding 
overly prescriptive safety and security regulations. The following 
improvements to safety, health and security oversight, including non-
nuclear operations, have been implemented to streamline directives and 
improve our standards:

    <bullet>  In response to Secretarial direction, the Office of 
Health, Safety and Security (HSS) fundamentally redesigned its 
Independent Oversight program for safety and security. HSS now focuses 
its oversight on high-hazard, high-consequence operations, the 
Department's most significant national security assets, and instances 
of deficient performance. It has eliminated routine oversight of 
routine industrial operations and lower value security assets. With 
rare exceptions, large inspections teams have been replaced by a more 
strategic approach using smaller teams that focus on specific issues 
and are better coordinated with DOE (including NNSA) line management to 
ensure maximum value and optimal efficiency in data gathering, thus 
considerably reducing the impact of independent oversight on mission 
activities at DOE sites.
    <bullet>  NNSA has adopted a decentralized oversight approach for 
nuclear and non-nuclear safety, relying on the site offices to provide 
the primary oversight of its contractors rather than a burdensome 
regimen of headquarters oversight. This approach is institutionalized 
in NAP-21, but will also be captured in the NNSA Functions, 
Responsibilities and Authorities (FRA) document, which is nearing 
completion. The FRA clearly articulates the regulatory oversight model 
that NNSA has implemented for safety and security, and associated 
regulatory roles and responsibilities.
    <bullet>  To ensure consistent and balanced implementation of 
nuclear safety requirements at its site offices, NNSA performs reviews 
of each site office every 2 years, evaluating 18 nuclear safety areas. 
Areas reviewed include, for example, quality assurance and the 
development and approval of safety documentation. These reviews are 
staffed largely by Federal subject matter experts from the sites, 
allowing good practices to be shared directly between the sites while 
developing a common set of expectations amongst the practitioners on 
how oversight should be done. Headquarters personnel, augment these 
reviews, further helping ensure a consistent set of expectations. These 
reviews have helped eliminate site-specific implementation issues, 
driving consistent improvements in performance. In the first round of 
reviews, began in 2005, expected performance was found in only 67% of 
the areas assessed. Two years later, that level rose to 90%, and to 93% 
in the most recent series.
    <bullet>  To complement its decentralized execution of oversight, 
NNSA has implemented a Central Technical Authority who, among other 
functions, ensures that DOE policies are developed and promulgated 
consistent with the needs of NNSA and its contractors. The 
Administrator currently serves this role, and is supported by an 
Associate Administrator for Safety and Health with a staff of subject 
matter experts. DOE requires CTA concurrence on revisions to 
requirements that can affect nuclear safety. NNSA has used this 
authority to ensure that the needs of NNSA and its contractors are 
properly reflected in revisions to DOE nuclear safety directives.
    <bullet>  NNSA completed a security reform initiative to deliver 
programmatic reform and provide cost-effective protection of nuclear 
weapons, special nuclear materials, classified information, facilities, 
and employees that has saved NNSA and taxpayers over $50 million per 
year in productivity improvements and cost reductions (several hundreds 
of millions of dollars over the 5-year FYNSP), while maintaining a 
robust security posture. This security reform initiative restructured 
security governance and oversight to redefine the survey and self-
assessment activities. This initiative also had the Site Offices 
implement a risk-based model that prioritized and focused resources on 
high-risk operational activities.
    <bullet>  NNSA has developed NAPs for security with the goal of 
achieving management and operational excellence. NNSA's security NAPs 
include improvements that would also benefit other DOE organizations, 
and that will be incorporated into a revised set of DOE security 
directives that provides consistent direction to all DOE sites. The 
revisions to DOE directives will focus on establishing security 
requirements that are necessary for adequate protection and conform to 
national standards, while providing flexibility to site organizations 
to use the most appropriate methods to meet the security requirements 
and protection objectives. NNSA is working collaboratively with HSS in 
the revision process for the DOE security directives and will cancel 
current security NAPs upon their incorporation into revised DOE 
directives.
    <bullet>  NNSA established a Security Commodity Team (SCT) that 
delivered a common procurement mechanism with a single provider for 
uniforms and a wide range of tactical equipment that produced cost 
savings, more efficient processing time, and expedited delivery 
schedules.
    <bullet>  NNSA initiated a Protective Force (PF) Training Reform 
Initiative to develop a corporate PF training program, based upon newly 
developed and consistent mission-essential tasks. This initiative will 
improve the focus, effectiveness, and efficiency of the annual PF 
sustainment training program.

    Mr. Langevin. 18) Mr. Huizenga, the DOE received $5.1 billion for 
Defense Environmental Cleanup through the American Recovery and 
Reinvestment Act of 2009. Can you provide a status of the projects this 
$5.1 billion funded?
    Mr. Huizenga. The Environmental Management (EM) American Recovery 
and Reinvestment Act Program has demonstrated tremendous success in 
accelerating the environmental cleanup of contaminated facilities, 
lands, and groundwater across the EM complex. Utilizing the full $5.99 
billion received in Recovery Act funds, EM has completed 92 percent of 
the projects/cleanup activities on-time and within budget. EM has also 
reduced its environmental contamination footprint from over 900 square 
miles to 316 square miles as of March 30, 2012. In total, EM has 
initiated 126 discrete projects/cleanup activities (85 Defense 
Environmental Cleanup funded and 41 Non-Defense funded). To date, 95 
projects/cleanup activities have been completed (64 Defense funded and 
31 Non-defense funded). Currently, the Defense Environmental Cleanup 
Recovery Act account has a balance of approximately $215 million that 
will be utilized to complete 21 remaining projects/cleanup activities.

    Mr. Langevin. 19) Mr. Winokur, can you please discuss your safety 
concerns regarding the Waste Treatment Plant at Hanford, and are there 
current efforts between the DNFSB and the DOE to address these 
concerns?
    Dr. Winokur. For more than a decade, the Board has devoted time and 
resources to oversight of the Waste Treatment and Immobilization Plant 
(WTP) with two main safety objectives. First, operation of the plant 
must not expose the public or workers to undue risk. Second, the plant 
must achieve its design objectives to eliminate the safety and 
environmental risks posed by continued storage of millions of gallons 
of high-level waste in aging underground tanks. Although this is a one-
of-a-kind project with novel technology that requires significant 
research and development, it is being designed concurrent with 
construction (also known as a ``fast track'' design/build approach). As 
a result, timely identification and resolution of technical issues are 
paramount to meeting the objectives of the Hanford cleanup effort.
    The Board's safety reviews have focused on ensuring that important 
safety systems can meet the safety function and safety performance 
requirements specified in the project safety basis documents. The Board 
has identified significant weaknesses in the design of safety systems 
and is working closely with DOE to correct them. The Board has written 
two Recommendations and numerous letters on this project. The principal 
issues that have not yet been resolved are summarized below:
    Mixing in Process Vessels. On December 17, 2010, the Board issued 
Recommendation 2010-2, Pulse Jet Mixing at the Waste Treatment and 
Immobilization Plant, to address nuclear safety hazards arising from 
inadequate mixing of waste in processing tanks. On November 10, 2011, 
DOE provided the Board with an implementation plan that commits to 
conduct a test program to determine the capabilities of WTP's mixing 
systems, develop waste acceptance criteria for WTP that will address 
safety concerns associated with mixing, and determine the requirements 
for waste sampling systems in the Tank Farms and WTP. However, on April 
30, 2012, DOE informed the Board that a key technical assumption used 
in the planned approach to testing and modeling was not technically 
defensible, and that a revision to the implementation plan is needed. 
DOE plans to issue the revised plan by the fourth quarter of 2012.
    Erosion and Corrosion of Piping, Vessels, and Pulse Jet Mixer 
Nozzles. The Board found that the WTP contactor had not properly 
justified the wear allowances needed to ensure that piping, vessels, 
and mixing equipment (particularly items that will be inaccessible once 
radioactive operations commence) will not suffer excessive erosion and 
corrosion over the 40-year design life of the facility. DOE agrees with 
the Board's evaluation. The WTP contractor is developing a plan for 
evaluating erosion and corrosion on a vessel-by-vessel basis that 
accounts for variations during waste processing operations.
    Hydrogen in Piping and Ancillary Vessels. The Board is continuing 
to evaluate the safety issues associated with the proposed hydrogen 
control strategy for WTP, which allows hydrogen explosions in piping 
under certain conditions. The contractor recently completed its 
resolution of technical concerns identified by the Board and by an 
independent review team chartered by DOE. DOE is presently reviewing 
the revised hydrogen control strategy. The contractor has not yet 
implemented the revised hydrogen control strategy in WTP's design or 
incorporated it in the safety basis. The contractor also needs to 
complete a major testing effort to determine the effect of hydrogen 
explosions on components such as valves and instrumentation.
    Spray Leak Analysis. In 2011, the Board identified technical issues 
with the WTP contractor's approach for determining the consequences to 
the public of accidents involving sprays of radioactive liquids. DOE 
acknowledged that the Board's concerns were valid and committed to 
resolve them through a test program. This test program is currently 
under way.
    Heat Transfer Analyses for Process Vessels. The Board found 
technical issues in heat transfer analyses that the WTP contractor was 
using to establish post-accident mixing requirements to avoid hydrogen 
explosions in process vessels in the WTP Pretreatment Facility. DOE has 
agreed that the technical assumptions in the contractor's heat transfer 
model needed better justification and is pursuing appropriate analyses.
    Instrumentation and Control System Design. The Board found that the 
preliminary safety basis did not ensure the required reliability of 
safety-significant instrumented systems. DOE had the WTP contractor 
complete a comprehensive review of the problem and has committed to 
revise the appropriate procedures and guides for engineering and safety 
analysis to correct the issue.
    Ammonia Hazards. The Board found that the existing design and 
safety-related controls will not adequately protect workers or 
facilities at WTP from accidents involving the large quantities of 
ammonia to be stored at the WTP site. In response, DOE informed the 
Board that the project team will perform three new hazard analyses to 
address the Board's concerns.
    Design and Construction of Electrical Distribution System. On April 
13, 2012, the Board issued a letter to DOE identifying safety issues 
with the design of the electrical distribution system at WTP. The Board 
is waiting for a response from DOE on this issue.
    Safety Culture. The Board issued Recommendation 2011-1, Safety 
Culture at the Waste Treatment and Immobilization Plant, on June 9, 
2011, after determining that serious flaws in the project's safety 
culture were inhibiting the identification and resolution of technical 
and safety issues. DOE accepted the Board's recommendation, and has 
provided an acceptable implementation plan for corrective actions. 
DOE's Office of Health, Safety and Security (HSS) independently 
reviewed the WTP safety culture, and confirmed the Board's conclusions 
in a report issued in January 2012. Both the DOE Office of River 
Protection and the WTP contractor are pursuing corrective action plans 
in response to the issues identified in the Board's recommendation and 
by the HSS review.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
